<html>
<title> - INNOVATION AND INCLUSION: THE AMERICANS WITH DISABILITIES ACT AT 20</title>
<body><pre>[Senate Hearing 111-986]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 111-986

  INNOVATION AND INCLUSION: THE AMERICANS WITH DISABILITIES ACT AT 20

=======================================================================

                                HEARING

                               before the

      SUBCOMMITTEE ON COMMUNICATIONS, TECHNOLOGY, AND THE INTERNET

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 26, 2010

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                  U.S. GOVERNMENT PRINTING OFFICE
66-489 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 GEOGE S. LeMIEUX, Florida
CLAIRE McCASKILL, Missouri           JOHNNY ISAKSON, Georgia
AMY KLOBUCHAR, Minnesota             DAVID VITTER, Louisiana
TOM UDALL, New Mexico                SAM BROWNBACK, Kansas
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
                 Ann Begeman, Republican Staff Director
             Brian M. Hendricks, Republican General Counsel
                  Nick Rossi, Republican Chief Counsel
                                 ------                                

      SUBCOMMITTEE ON COMMUNICATIONS, TECHNOLOGY, AND THE INTERNET

JOHN F. KERRY, Massachusetts,        JOHN ENSIGN, Nevada, Ranking
    Chairman                         OLYMPIA J. SNOWE, Maine
DANIEL K. INOUYE, Hawaii             JIM DeMINT, South Carolina
BYRON L. DORGAN, North Dakota        JOHN THUNE, South Dakota
BILL NELSON, Florida                 ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           GEORGE S. LeMIEUX, Florida
FRANK R. LAUTENBERG, New Jersey      JOHNNY ISAKSON, Georgia
MARK PRYOR, Arkansas                 DAVID VITTER, Louisiana
CLAIRE McCASKILL, Missouri           SAM BROWNBACK, Kansas
AMY KLOBUCHAR, Minnesota             MIKE JOHANNS, Nebraska
TOM UDALL, New Mexico
MARK WARNER, Virginia
MARK BEGICH, Alaska















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 26, 2010.....................................     1
Statement of Senator Kerry.......................................     1
Statement of Senator Pryor.......................................     7
    Prepared statement...........................................     7
    Prepared statement of Marlee Matlin, Actress, on Behalf of 
      The National Association of the Deaf, submitted by Hon. 
      Mark Pryor.................................................     9
Statement of Senator Klobuchar...................................    40

                               Witnesses

Hon. Edward Markey, U.S. Representative from Massachusetts, 
  Seventh District...............................................     3
    Prepared statement...........................................     6
SSG Brian K. Pearce (Retired Combat-Wounded Veteran).............    11
    Prepared statement...........................................    12
Thomas Wlodkowski, Director of Accessibility, AOL Inc............    14
    Prepared statement...........................................    15
Bobbie Beth Scoggins, on Behalf of the National Association of 
  the Deaf and the Coalition of Organizations for Accessible 
  Technology.....................................................    18
    Prepared statement...........................................    20
Russell Harvard, on Behalf of the National Association of the 
  Deaf and the Coalition of Organizations for Accessible 
  Technology.....................................................    24
    Prepared statement...........................................    26
Walter B. McCormick, Jr., President and CEO, United States 
  Telecom Association............................................    29
    Prepared statement...........................................    31

 
  INNOVATION AND INCLUSION: THE AMERICANS WITH DISABILITIES ACT AT 20

                              ----------                              


                        WEDNESDAY, May 26, 2010

                               U.S. Senate,
Subcommittee on Communications, Technology, and the 
                                          Internet,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:35 p.m., in 
room SR-253, Russell Senate Office Building, Hon. John F. 
Kerry, Chairman of the Subcommittee, presiding.

           OPENING STATEMENT OF HON. JOHN F. KERRY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Kerry. Hearing will come to order.
    Thank you all very much for being here today. I 
particularly want to thank my colleague and friend, Congressman 
Ed Markey, for being here and for his work in this area.
    We're meeting today to discuss two very important matters: 
one, promoting innovation and modern communications, and, two, 
making sure that people with disabilities are included in the 
economic and social revolution that comes with modern 
communications.
    Twenty years after the passage of ADA, it is time--for 
those listening that don't know what that is, it's the 
Americans with Disabilities Act. It is time to recommit 
ourselves to making sure that all Americans, those with 
disabilities, are not left behind, online or off.
    Earlier this week, Chairman Rockefeller and I, along with 
counterparts in the House, called for initiating a process to 
update whatever laws we need to in order to make sure that 
they're in synch with the modern communications market today.
    So much more information is available, so many 
opportunities are available through these modern means of 
communication that life itself has changed in our country. We 
need to make sure that it has changed for everybody in a 
positive way.
    How stakeholders approach the debate over increasing access 
to modern communications with peoples with disabilities, I 
think, will serve as an interesting case study to how they're 
going to approach the broader effort to update our laws in this 
field.
    We still have to see whether or not providing people with 
disabilities access to the wires, devices, and the services 
that connect us to the Internet--and, over time, the services 
on the Internet itself--will bring people of goodwill together 
in order to negotiate in good faith in this effort or, as we 
often see around here, whether or not folks will resist and 
special interests will rear their heads up to somehow shift 
responsibility to other people and then even gain the rules and 
try to prevent the entry of new competitors into this market 
or, as they sometimes do, try to say that any effort by the 
Federal Government to set the rules is somehow an overreach. 
And I think we're going to make it clear, that it is not.
    I want to say how pleased I am that Senator Pryor and his 
staff have worked so closely with ours. We have benefitted from 
the terrific participation of advocates for the disabled and 
various industry players and experts at the FCC in helping to 
lead up to this hearing. And I also want to recognize that the 
preparation for this has been largely organized around the 
introduction of legislation modeled on what Congressman Markey 
has achieved over in the House.
    And I think we ought to try--and I know the Congressman 
feels this way--to get this bill to the President's desk this 
year for signature.
    The goal is very clear: to ensure that Americans with 
disabilities have the opportunity to access and use 
communications services and infrastructure just like the rest 
of us. And doing so is really critical to making good on our 
commitment to an open and inclusive society.
    I was privileged when I first came to the United States 
Senate to work--back in 1985--with Senator Lowell Weicker, and 
I was serving briefly on the Health and Human Services 
Committee, and, at that point, he was Chairman of something 
that was still then called the Handicapped Subcommittee. That 
shows you the distance we've traveled.
    But one of the things that we did was put in place major 
technology grants that assisted in the development of assistive 
technology devices. And, today, there are people with terrible 
diseases--usually nervous-system disorders, muscular 
disorders--who are able to communicate exclusively because they 
can use these assisted devices in a bed or in a chair, as the 
case may be. It changed life for people to be able to 
communicate, and it came about because we were able to address 
this in balance and excite that kind of research and 
development.
    So, what we need to do now is recognize that too many of 
the applications that a lot of us just take for granted, too 
many of the applications transmitted over the existing devices 
and facilities are inaccessible to people with disabilities. 
And that means a huge part of life in America is inaccessible, 
and that's unacceptable.
    The huge companies that own the pipes coming into homes or 
who design and sell the services that make access possible 
today don't necessarily have to make those devices or services 
available to people with disabilities.
    So, working with my friend, Congressman Markey, as well as 
Senator Pryor and others in the Senate, we intend to change 
that. We need the industry to cooperate with us.
    Our bill aims to require several things, that beginning 
with the largest firms that control access and entry onto the 
Internet, and eventually spreading to all communications 
providers over the Internet, they, at minimum, make a good-
faith effort at accessibility, and, also, where technology is 
available, make the product or the service available.
    Some people may say, What are you talking about, Senator? 
What do you mean here?
    Well, for instance, it is not right that a deaf actor, who 
has all the talent in the world, doesn't have the opportunity 
to learn the craft or develop important skills that come from 
watching other actors perform simply because he or she can't 
access what those actors are saying. That can be cured.
    It is wrong that a soldier blinded in combat can come home 
and, because of the absence of video devices, not being able to 
fully access some of what is on the television, including 
emergency information. It's unacceptable that because a child 
is born deaf, he or she can't use a video-conferencing service 
that would allow that person to sign a conversation with 
friends who are not disabled or who have a different 
disability.
    All of these things are doable, and one of our central 
responsibilities as policymakers is to write rules and 
regulations to provide access for essential service where the 
market won't, by its own volition, automatically do that.
    And fulfilling that responsibility is actually what made 
electricity and phone service available almost everywhere. It's 
that kind of commitment that led us to mandate closed 
captioning for television, so that deaf folks could get their 
news in a crisis, just like the rest of us.
    It's also what led Congress to pass the Americans with 
Disabilities Act two decades ago. And we believe that, today, 
access to the Internet and the ability to communicate over 
smartphones and computers is an essential service of the 21st 
Century.
    We try to strike a balance in our proposed legislation 
between the industry's ability to innovate freely and onerous 
regulation, but also making sure that the needs of people with 
disabilities are considered and addressed in the delivery of 
Internet service.
    And we're going to continue to work with everyone who is 
interested in this, in order to try to make sure that we do it 
in a reasonable and a thoughtful way. But we're not going to 
accept a communications structure that refuses, simply out of 
stubbornness, to include people with disabilities.
    The time to solve the problem, in our judgment, is now. And 
I'm very, very happy to welcome a long-time advocate on these 
issues, probably one of the most knowledgeable people in 
communications in the entire Congress and the Dean of the 
Massachusetts delegation, Congressman Ed Markey.

                STATEMENT OF HON. EDWARD MARKEY,

            U.S. REPRESENTATIVE FROM MASSACHUSETTS,

                        SEVENTH DISTRICT

     Mr. Markey. Thank you, Senator Kerry, very much, and thank 
you for inviting me over here this afternoon.
    And I want to congratulate you, Senator Pryor, and Senator 
Rockefeller, on the leadership which you are showing on this 
very important issue of affordable, universal access for all 
Americans to the latest technologies of the 21st century.
    As you said, on July 26, 2010, we will celebrate the 20th 
anniversary of the signing of the Americans with Disabilities 
Act. When President Bush signed the ADA into law, he famously 
said, ``Let the shameful walls of exclusion finally come 
tumbling down.''
    The ADA was an historic victory, but, now, two decades 
later, we must take action again to ensure that new walls are 
not erected, that new barriers to inclusion may be virtual, 
wireless, composed of zeros and ones, a result of devices and 
services designed without accessibility in mind.
    Regardless of their origin, these 21st century walls are 
just as exclusionary as the physical barriers that were the 
focus of the ADA 20 years ago or the analog-era communications 
hurdles that we had to overcome in the ADA Act and in the 
Telecommunications Act of 1996, to do away with that old era, 
which is why there is no more important hearing that is taking 
place in Washington today than this issue. This is the time to 
break down the walls of exclusion of the digital era.
    The requirement for the FCC to further a National Broadband 
Plan, which I successfully included in the Stimulus Bill of 
2009 to create the broadband plan for the 21st Century in 
America, was designed to produce a roadmap to a broadband 
future open to all Americans. The plan was released in March 
and contains some sobering data on barriers to broadband 
adoption amongst Americans with disabilities. For example, the 
broadband plan reported that 39 percent of all non-broadband 
adopters have a disability, much higher than the 24 percent of 
overall survey respondents who have a disability.
    Impediments that people with disabilities face include 
devices that are often not designed to be accessible for people 
with disabilities; assistive technologies that are expensive--
Braille displays, for example, can cost between $3,500 and 
$15,000--services, including emergency services that are not 
accessible; web pages and new media applications that cannot be 
accessed by a person using a screen reader; and Internet-based 
video programming does not have captions or video descriptions 
offering an account of what is on the screen.
    This is important given the rapid rise of online video 
options like Hulu and other new services that will exclude 
those that do not have the capacity to be able to participate.
    Historically, it has taken years, even decades, for 
Americans with disabilities to have something close to equal 
access to telecommunications. The FCC reported that it took 
over 100 years for telephone systems to become accessible for 
people with speech and hearing disabilities, over 50 years for 
television to become accessible for deaf people, and 10 years 
for people who used hearing aids to be able to use digital 
wireless phones.
    Now, we were able to pass laws that changed all that over 
the last 20 years, but Americans with disabilities should have 
access to the new telecommunications technologies of the 21st 
Century as well, and delay is unacceptable.
    The guiding principles of the 21st Century Communications 
and Video Accessibility Act that I have introduced in the 
House--similar to the legislation that you have introduced over 
in the Senate--is to bring existing federal laws requiring 
communications and video programming accessibility up to date 
to fill in any accessibility gap and to ensure the full 
inclusion of Americans with disabilities in all aspects of 
daily living through accessible, affordable and useable 
communication and video programming technologies.
    Since the ADA was signed into law, we have seen a 
revolution in the way Americans interact, learn and conduct 
business. However, the wizardry of the wires and the 
sophistication of the software programs do little for those who 
cannot affordably access or effectively use them.
    The fact is that the new technologies and services are 
neither intrinsically good, nor are they bad. There is a 
Dickensian quality to each of these technologies. They are the 
best of wires and the worst of wires simultaneously. They can 
enable and ennoble, or they can degrade and debase.
    These new technologies are only as good as the animation 
with human values that we ascribe to them. And as our 
population ages, there will be more of us who will inevitably 
benefit from these new features.
    And, finally, I must note that many of the arguments raised 
against elements of our accessibility legislation are eerily 
similar to arguments made against hearing-aid compatibility and 
closed captioning in 1990.
    In that debate, we were told that mandating closed 
captioning on all television sets would cost $20 per TV set. It 
would crush the industry. It would take a lifetime and a 
fortune to caption all of the television shows and movies. It 
would just be too expensive for the industry. It would be 
overly burdensome. Notwithstanding these objections, we passed 
and the President signed into law the closed-captioning 
legislation that I had championed.
    Now, what is the result? Well, interestingly, when people 
turn on their TV set and they go to closed captioning, yes, for 
those who need it, they can watch it, but some other 
interesting things happened as well. The immigrant community 
can now turn on the closed captioning and their children can 
actually read along with the words as they sit there in the 
living room, learning our language.
    In addition, in barrooms all over America now, guys can 
actually watch the game at the same time with the closed 
captioning. That was impossible before the 1990 
Telecommunications Act. So all of this----
    Senator Kerry. Is that admissibility?
    [Laughter.]
    Mr. Markey. It allows guys to multitask in bars. Okay? You 
know, that was an unintended consequence of a technology 
revolution, where others actually benefit from it as well.
    And what else happened? Very funny thing happened. The 
whole cost dropped down to $1 per television set from the $20 
per television set that had been predicted. And all of these 
incredible benefits then began to flow to people.
    So the best way for us to increase the productivity of the 
American people, to unleash all of the great God-given 
abilities that everyone has been given, is to give them access 
to the way in which we communicate in the 21st century. And 
those 10 million or 20 million people out there, they'll be 
able to plug in and make contributions that will help not only 
themselves and their families, but help America as well, 
because they'll be able to fully contribute according to their 
own God-given abilities.
    And so I thank you, Senator Pryor. I praise you in 
absentia, and I'll do it in person, and you, Chairman Kerry, 
for your tremendous leadership on this bill.
    I think we can get this done this year. I think it's 
important for us to get it done. These people have waited too 
long. Thank you.
    [The prepared statement of Mr. Markey follows:]

               Prepared Statement of Hon. Edward Markey, 
        U.S. Representative from Massachusetts, Seventh District
    Thank you, Chairman Kerry, for holding this important hearing today 
and for inviting me to testify this afternoon. You and Senator Pryor 
have shown tremendous leadership on the important issue of affordable, 
universal access for all Americans to the latest technologies of the 
21st century.
    On July 26, we will celebrate the 20th anniversary of the signing 
of the Americans with Disabilities Act. When President Bush signed the 
ADA into law, he famously said ``Let the shameful walls of exclusion 
finally come tumbling down.''
    The ADA was an historic victory; but now, two decades later, we 
must take action again to ensure that new walls are not erected--the 
new barriers to inclusion may be virtual, wireless, composed of zeroes 
and ones, or a result of devices and services designed without 
accessibility in mind. Regardless of their origin, these 21st century 
walls are just as exclusionary as the physical barriers that were the 
focus of the ADA 20 years ago or the analog-era communications hurdles 
we had to overcome.
    Now is the time to break down these walls of exclusion of the 
Digital Era.
    The requirement for the FCC to develop a National Broadband Plan 
that I successfully added to the Recovery Act was designed to produce a 
roadmap to a broadband future open to all Americans.
    The Plan was released in March and contained some sobering data on 
barriers to broadband adoption among Americans with disabilities. For 
example, The Plan reported that:

  <bullet> Some 39 percent of all non-broadband adopters have a 
        disability, much higher than the 24 percent of overall survey 
        respondents who have a disability.

  <bullet> Impediments that people with disabilities face include:

    <ctr-circle> Devices that often are not designed to be accessible 
            for people with disabilities.

    <ctr-circle> Assistive technologies that are expensive (Braille 
            displays, for example, can cost between $3,500 and 
            $15,000).

    <ctr-circle> Services, including emergency services, that are not 
            accessible.

    <ctr-circle> Web pages and new media applications that cannot be 
            accessed by a person using a screen reader.

    <ctr-circle> And Internet-based video programming does not have 
            captions or video descriptions offering an account of what 
            is on the screen. This is important given the rapid rise of 
            online video options such as Hulu.

    Historically, it has taken years--even decades--for Americans with 
disabilities to have anything close to equal access to communications. 
The FCC has reported that it took:

  <bullet> Over 100 years for telephone systems to become accessible 
        for people with speech and hearing disabilities;

  <bullet> Over 50 years for television to become accessible for deaf 
        people; and

  <bullet> 10 years for people who used hearing aids to be able to use 
        digital wireless phones.

    Americans with disabilities should have access to the 
communications technologies of 21st century, and delays are 
unacceptable.
    The guiding principle of the Twenty-first Century Communications 
and Video Accessibility Act that I have introduced in the House and the 
related legislation we are considering today is to bring existing 
Federal laws requiring communications and video programming 
accessibility up to date, to fill in any accessibility gaps, and to 
ensure the full inclusion of Americans with disabilities in all aspects 
of daily living through accessible, affordable and usable communication 
and video programming technologies. Since the ADA was signed into law, 
we have seen a revolution in the way Americans interact, learn and 
conduct business. However, the wizardry of the wires and the 
sophistication of software programs do little for those who cannot 
affordably access or effectively use them.
    The fact is that the new technologies and services are neither 
intrinsically good nor bad. They're only good when we animate them with 
the human values that reflect the best of what we are as a society. And 
as our population ages, there will be more of us who will inevitably 
benefit from these features.
    Finally, I must note that many of the arguments raised against 
elements of our accessibility legislation are eerily similar to 
arguments made against hearing aide compatibility and closed captioning 
in 1990. In that debate, we were told mandating closed captioning would 
add $20 to the cost of a TV. It would crush the industry. It would take 
a lifetime and a fortune to caption all the television shows and 
movies. It would be overly burdensome. Notwithstanding these 
objections, we passed and the president signed into law closed 
captioning legislation that I had championed.
    Then a funny thing happened--uses emerged for closed captioning 
that had not been anticipated--captions now are used in immigrant 
households to learn English and watched in sports bars and on 
treadmills across our country. Moreover the mandate didn't cost nearly 
$20--it cost about $1 per TV set.
    Even though technologies may change, the values we seek to instill 
in those technologies are immutable--accessibility, affordability, 
opportunity.
    There is no better way to honor the 20th anniversary of the ADA 
than to move this bill forward. Mr. Chairman, I am looking forward to 
partnering with you and Senator Pryor and our colleagues in the House 
and Senate in this vitally important effort.
    Thank you.

    Senator Kerry. Well, thank you, Congressman. Very, very 
helpful testimony, and I agree with you. I think we can get it 
done this year.
    Senator Pryor, do you want to make any statement at this 
point before I ask questions?

                 STATEMENT OF HON. MARK PRYOR, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Pryor. I don't, Mr. Chairman, other than I want to 
thank Congressman Markey for being here and thank you for your 
leadership on this, as well as you, Mr. Chairman. You guys are 
the dynamic duo when it comes to this, and we just really 
appreciate you. And I have a statement for the record I'll just 
introduce. Thank you.
    Senator Kerry. Without objection, the full statement will 
be placed in the record.
    [The prepared statement of Senator Pryor follows:]

   Prepared Statement of Hon. Mark Pryor, U.S. Senator from Arkansas
    Thank you, Senator Kerry, for holding this important hearing today 
on innovation and inclusion in light of the upcoming 20th anniversary 
of the Americans with Disabilities Act.
    The focus of today's hearing is to evaluate whether the current 
marketplace and legal framework have ensured that people with hearing 
and vision disabilities have equal access to 21st century 
communications.
    In 1990, Congress passed the ADA, in part, so that individuals who 
used wheelchairs could attend schools, pursue jobs, enjoy access to 
businesses like banks or restaurants. In 1996, Congress passed the 
Telecommunications Act, recognizing that Americans with disabilities 
have a right to expect equal access to communications.
    However, these laws do not apply to one of our greatest 
technological innovations--the Internet. As we all know, the Internet 
is no longer a luxury, it is a necessity to learn, interact, and 
conduct business.
    That is why I, along with my colleagues Senators Kerry, Conrad, and 
Dorgan introduced S. 3304, the Equal Access to 21st Century 
Communications Act.
    Our goal is to ensure that the wonders of today's (and tomorrow's) 
innovations are available to all Americans, regardless of their 
geographic location or their personal circumstances.
    Expanding access to the Internet has been one of my top priorities 
here in the Senate. I've worked to promote rural broadband and connect 
new areas to the wonders of the World Wide Web. In the land of 
opportunity, we need to be sure that everyone can fully participate and 
compete in the 21st century marketplace.
    However, I also understand the need to balance reasonable 
accommodations with the fast changing world of new media 
communications.
    I value the input of the technology community. That is why I am 
committed to working with all interested parties moving forward on this 
legislation. I would particularly like to thank the Coalition of 
Organizations for Accessible Technology, the U.S. Telecom Association, 
CTIA--the Wireless Association, the National Cable and 
Telecommunications Association, the Consumer Electronics Association, 
the National Association of Broadcasters, and the Telecommunications 
Industry Association for working with me and my staff on these issues.
    I thank the witnesses here today for their testimony and having the 
opportunity to ask questions.

    Senator Kerry. Congressman, I know you've got to get back 
over to the House and we really appreciate you coming over 
very, very much.
    Mr. Markey. Thank you.
    Senator Kerry. Thank you. Thanks for your leadership.
    Mr. Markey. Thank you. Thank you for your great leadership. 
Thank you all so much.
    Senator Kerry. We have a very distinguished and capable 
second panel.
    I'd like to ask Sergeant Brian Pearce--he's a retired Iraq 
War veteran who suffered traumatic brain injury and lost his 
sight in an IED blast--if he would come to the table; Thomas 
Wlodkowski, the Accessibility Director at AOL; Bobbie Beth 
Scoggins, the President of the National Association of the 
Deaf; Russell Harvard, an acclaimed film actor, who performed 
in the Oscar-winning film, There Will Be Blood, and the TV 
show, CSI: New York; and Walter McCormick, the President and 
CEO of the U.S. Telecom Association. If you could all take your 
spots there.
    I think each of you will have a five-minute time period to 
summarize, if you would. Your full statements will be placed in 
the record as if read in full. And there'll be a little red 
light there that will also be accompanied by a beep sound that 
you'll hear that'll give you a sense of when you're at the five 
minutes. And we won't cut you off immediately, but try to 
adhere to it.
    Senator Pryor. Mr. Chairman.
    Senator Kerry. Yes.
    Senator Pryor. As they're getting situated, Marlee Matlin, 
a well-known advocate for the deaf community and Oscar-winning 
actress, was unable to be here today, but she did send some 
testimony and I would ask that it be included in the record.
    Senator Kerry. Absolutely.
    Senator Pryor. Thank you.
    Senator Kerry. We'd be delighted to put that in the record 
and we welcome her testimony. I've had a chance to meet her a 
few times and she's a wonderful person and great advocate.
    [The prepared statement of Marlee Matlin follows:]

             Prepared Statement of Marlee Matlin, Actress, 
           on Behalf of The National Association of the Deaf
    Chairman Kerry, Ranking Member Ensign, and members of the Senate 
Subcommittee on Communications, Technology, and the Internet, my name 
is Marlee Matlin. Let me first say I am honored to have the opportunity 
to submit this testimony for you today as a spokesperson for accessible 
broadband services and Internet media for the National Association of 
the Deaf. If I could have delivered this personally, I would have. 
Access to advanced communication and video programming--regardless of 
their mode or method of distribution, but particularly over the 
Internet--is near and dear to my heart and the hearts of millions of 
Americans.
    Though many of you may know me by the many acting roles I have 
played--from ``Children of a Lesser God'' to my various TV appearances 
on shows like ``Desperate Housewives,'' ``Law and Order SVU,'' the 
``West Wing,'' and most recently as the crazy lady who asked America to 
``read my hips'' on ABC's ``Dancing with the Stars,'' I am also a 
consumer and member of a very vibrant and rich cultural community. I am 
deaf and one of 36 million Americans who are deaf or hard-of-hearing.
    When I was 7 years old, my mother took me to the International 
Center on Deafness and the Arts in suburban Chicago to help unlock my 
inner actress. Despite becoming deaf at 18 months old, my parents were 
determined to treat me as any child should be treated: with love and 
respect. And despite what doctors had predicted for me, in my parents' 
minds nothing would ever be denied me. So when it became evident that 
their little girl wanted to be an actress (I was born a ham) they took 
me to the Center where I found my true love--acting. On the day of my 
first visit, I discovered they were putting on a production of the 
``Wizard of Oz.'' No sooner had I walked in that I insisted there was 
only one role for me: ``I'm Dorothy,'' I declared. That's how much 
confidence and freedom my parents encouraged in me. Needless to say, I 
got the lead role!
    By the time I was 13, I had been acting in plays in sign and song 
throughout the Midwest. One day at the Center, I was told that the most 
famous person in America--no, not President Carter--but the actor Henry 
Winkler, known worldwide as the Fonz on ``Happy Days,'' was paying a 
visit. With that Matlin determination and independence in me, I went 
right up to him and I said, ``Hi, I'm Marlee and I want to be an actor 
just like you in Hollywood.'' With equal determination, cultivated by 
Henry's own experience with barriers growing up with dyslexia, Henry 
looked me straight in the eye and said in his coolest, most Fonzie-like 
voice, ``Marlee, sweetheart, you can be whatever you want to be. Just 
follow your heart and your dreams will come true.''
    Eight years later, I was standing on a stage in Hollywood accepting 
an Academy Award for Best Actress for my very first film. But the 
moment that should have been victorious was actually bittersweet. The 
morning after I had won the Oscar, a very famous film critic proclaimed 
that my victory the night before was the result of a pity vote. And he 
went on to say, because I was a deaf person in a deaf role, lent doubts 
to whether I was really acting. In other words, I didn't deserve the 
Oscar. Never in my life did I feel so limited, so ``handicapped.''
    Fortunately, it was Henry Winkler who helped me get back on the 
right path encouraging me with the same words he told me when I was 
13--no one or nothing should ever stand in the way of my dreams. But 
this time he also said I had an Academy Award in my hand to prove it.
    Two years later, with that determination to stand equally with my 
peers in the entertainment field in my heart, I lobbied and succeeded 
in getting the film which inspired me to become an actress, the 
``Wizard of Oz,'' closed captioned for the first time. The following 
year, in 1990, I took it one step further and I worked with the 
National Center for Law and the Deaf to come to Capitol Hill to lobby 
on behalf of legislation that required all televisions with screens 13" 
or larger to be equipped with closed captioning technology. Like the 
critics who doubted my ability as an actor who was deaf, placing me on 
a level below my hearing peers, the TV manufacturers and programmers 
resisted providing equal access for millions of Americans who were deaf 
and hard-of-hearing. But with hard work and determination, we were 
successful in getting the caption decoder bill passed. Six years later, 
legislation was passed to require broadcast television be fully closed 
captioned. For 36 million Americans, who for so long were left out of 
the mainstream when it came to broadcast TV, we were finally able to 
get the words hearing people all take for granted for our world.
    Last year, the ``Wizard of Oz'' celebrated a magnificent 
milestone--its 70th anniversary. For the first time in broadcast 
history, the film was being streamed live by Netflix to every single 
American who had access to a computer--for free. I was eager to share 
the film with my children, particularly my five-year-old daughter in 
whose eyes I saw the same wonderment and excitement as I had when I was 
seven, watching the story of the young girl from Kansas who had dreams 
that took her over the rainbow. But when I opened up my laptop and hit 
the play button, I was horrified to find that the film I had 
successfully lobbied to get closed captioned 20 years ago was being 
shown without captions. I was told the technology was ``coming'' and 
that I had to be ``patient and wait.''
    Well as you've heard from my brief history, I don't take things 
lying down and I did some investigating. First, I made noise on Twitter 
to the nearly 28,000 followers I had and then I made sure my friends, 
like Ashton Kutcher, who has over three million followers on Twitter, 
did as well. Eventually I found out that there was actually no problem 
in the technology. In fact, the technology exists to stream content 
with closed captions. What it came down to was the same issue I 
encountered 20 years ago--a lack of understanding and a lack of will 
and desire by broadcasters, content providers and equipment 
manufacturers to provide full access by passing through closed captions 
for programming already captioned.
    Today, if I open any computer and go to websites like Hulu, iTunes, 
or anyone that broadcasts content that has previously been broadcast on 
television with closed captions, I and millions of Americans like me 
would find that the captions are most often not there. I couldn't even 
watch myself on ``Dancing with the Stars'' being rebroadcast on ABC.com 
until very recently! The same would be true for Emmy award winning 
shows like ``30 Rock'' and ``Mad Men.'' Even more distressing is not 
being able to get captions on emergency and live events that are shown 
on TV with captions but streamed on the Internet without captions. 
Nowhere was this more glaring than during the unveiling ceremony of the 
Helen Keller statue in the Capitol rotunda, which was streamed live on 
CNN. For that event, there was not one closed caption to be found. The 
fact that it was an event to honor Helen Keller made it all the more 
painful for me. Here was a woman who fought for equality and access 
nearly 100 years ago and whom I looked up to as a role model, and yet I 
was unable to share in the celebration of her life. It was simply 
unacceptable.
    So what can we do--together--to change this? Just as I did 20 years 
ago, I am here again on Capitol Hill, as a spokesperson for accessible 
broadband services and Internet media for the National Association of 
the Deaf. The ``Equal Access to 21st Century Communications (S. 3304) 
will help to ensure that the legislation we won for access to 
telecommunications two decades ago is maintained. It is simply a matter 
of making sure that access reflects the changing landscape, which today 
includes broadband, the Internet, and wireless telephones and devices, 
like iPhones, iPads, Blackberries, and other smart phones. This is 
imperative because these technologies did not exist back then when we 
won our hard earned victory.
    In the end, it's not really rocket science. It's simply about 
making sure that millions upon millions of Americans who are deaf, 
hard-of-hearing, or otherwise differently abled are not shut out 
because advanced communications and video programming is not 
accessible. As I said earlier, for whatever reason, it seems that all 
the hard work that we did 20 years ago has virtually disappeared when 
it comes to updating access requirements for new technologies. Imagine 
Neal Armstrong watching a re-broadcast 20 years later, in 1989, of his 
first steps on the moon, only to find his words which echoed across the 
globe, ``one small step for man, one giant leap for mankind,'' were no 
longer there--erased, as if he had never been to the moon. That's how 
taking closed captions out of broadcast content now being shown on the 
Internet feels to millions of people like myself.
    I've always maintained that though I may be deaf, silence is the 
last thing the world will ever hear from me. I'll be making noise every 
day, whether it's on TV, in films or on social media sites like 
Twitter.
    In the end, I hope you will listen with your hearts. Remember that 
the real handicap of deafness does not lie in the ear; it lies in the 
mind. Please help us ensure that the minds of those who choose not to 
provide closed captions do not handicap us. Please help us ensure that 
they listen.
    Finally, please help us ensure that the hard fought victory we won 
so many years ago can move forward into the 21st century.
    Thank you so very much for allowing me to present this testimony 
and thank you for your time and interest.

    Senator Kerry. So if we could start. Sergeant, we'll begin 
with you, and we'll work down the table, each of you in 
succession, and we look forward to your testimony. Thanks so 
much for being here with us today, Sergeant.

               STATEMENT OF SSG BRIAN K. PEARCE 
                (RETIRED COMBAT-WOUNDED VETERAN)

    Sergeant Pearce. Chairman Kerry and Senator Pryor, Ranking 
Member Ensign and other members of the Senate Committee, I 
thank you for this opportunity to testify before you today 
regarding my military service and my war injury in Iraq and 
adjustment to blindness and hearing loss and my traumatic brain 
injury, TBI, along with my concerns, along with other disabled 
Americans, over access to new communications and technology 
devices.
    Written full testimony has more details on my military 
service that occurred to me by an IED blast and my long 
recovery, but, briefly, I am a 16-year Army veteran, who 
entered service in 1992.
    In 2005, I was stationed at Fort Wainwright, Alaska, with 
the 172nd Stryker Brigade Combat Team. When we deployed into 
Iraq from August 2005 until August 2006, my unit first went to 
Mosul, Iraq. When we were extended, we went to the Sunni 
Triangle.
    On October 20, 2006, I was hit by an IED and I suffered a 
severe penetrating head injury, and that caused my blindness, 
and it also caused partial hearing loss. And that's where I'll 
stop as far as my military history goes. You have my full 
testimony and I'll let you read that at your convenience, in 
the interest of time.
    But, today, I'm here to talk to you and tell you that at 
home in Richmond, I've found the evolving world on new 
technology devices to be frustrating and sometimes difficult to 
use. Something as easy as trying to use cable television and 
find channels and make programming decisions is a huge 
challenge without having audio feedback.
    One big fear when I'm home alone with my children, when I 
hear the emergency tones go off, whenever we have tornado 
warnings or storm warnings, whenever they show the tiny maps, 
whenever they have the storm warnings, it's really hard for me 
to see those tiny maps, and whenever they do the scrolling 
across for the storm warnings, those are really hard to see.
    And I've written some letters and those have yet to be 
addressed. But that's one of the things that I hope we can 
address here today.
    The other thing is cell phones. Cell phone and 
communication carriers seem to be at odds with creating 
barriers for combined services for the blind and deaf need. 
While there are probably 200 different phones on the market, 
finding one that is not hugely expensive and offers easy keypad 
functions and programs, that is a forever constant search.
    If someone is blind and buys a phone and the service 
contract but then has problems with its utilization, it is next 
to impossible and expensive to get a replacement, let alone to 
change a service contract without being caught in a web of 
penalties.
    Video descriptions are nearly impossible. Video 
descriptions, accessible interfaces and devices, emergency 
audio information and needs to use program wireless devices and 
Internet access information, to the average American today may 
not seem that important. For those with sensory loss, these 
problems add to frustrations of daily living, from trying to 
complete an education or enter the workforce.
    I have to wonder today if one of the factors contributing 
to unemployment problems for disabled is also some of the 
technology communications challenges along with other things.
    Today, I want to thank Congressman Markey for his 
introduction of H.R. 3101, and especially Senator Pryor and 
Chairman Kerry for holding this hearing and for the 
introduction of Senate Bill 3304.
    Technology must incorporate adaptive changes for the 
disabled, and federal agencies need to develop the new 
regulations or policies to guide the industry along towards 
these changes.
    I am today a proud veteran who served his country and would 
like to ensure that everyone has a chance to equally be as 
independent as possible. I do not pretend to be an expert on 
technology or the laws, just someone who wants to be able to do 
the things that any family would.
    Thank you again and I will answer any of your questions 
now.
    [The prepared statement of Sergeant Pearce follows:]

   Prepared Statement of SSG Brian K. Pearce (Retired Combat-Wounded 
       Veteran) and Angela M. Pearce of Mechanicsville, Virginia
    Chairman Senator Kerry, members of the Senate Subcommittee on 
Commerce for Communications and Technology, thank you for the 
opportunity to speak to you today regarding our experiences following 
my injuries in Iraq and my own experiences with adjusting to blindness 
and trying to use technology today.
Military History
    I joined the U.S. Army in June 1992 and served until March of 2000, 
joining the WVARNG. After a 3 year service break I returned to Active 
Duty in January of 2004. My new duty station was the 172nd Stryker 
Brigade Combat Team out of Ft. Wainwright, Alaska. There I was assigned 
to 4-11th FA as the Brigades Survey/Targeting Acquisition Chief. After 
an intense training period, we deployed in July of 2005. My SBCT spent 
August 2005 through August 2006, the first year of our deployment, 
operating in the Mosul area. As the Brigade prepared to re-deploy home 
to Ft. Wainwright in July, we were extended for 120 days and assigned 
to area of responsibility in the Sunni Triangle.
Injury Iraq
    On October 20, 2006, I was severely injured by an IED blast that 
caused shrapnel to penetrate the right occipital lobe of the skull. 
Once the blast zone had been secured I was air evacuated to the field 
hospital in Ballad, Iraq. There, I underwent an emergency craniotomy of 
the right occipital and posterior fossa with duraplasty retaining 
foreign body, and a ventriculostomy. This blast, in turn, caused me to 
suffer from a sever TBI and cortical blindness. Later, we learned it 
was the cause for more complex visual impairments, PTSD, hearing loss, 
pulmonary embolism, seizure and REM sleep disorders.
    During this time my wife was contacted in Alaska and was told that 
I had been involved in an IED blast and was in stable condition 
complaining only of neck injury. Roughly 3 hours later she was 
contacted by my commander who was with me in Iraq. He then told her 
that I had come through the brain surgery fine and was listed as very 
critical and once they could get me stable enough I would be air-lifted 
to Landstuhl, Germany. Once she was able to talk to my doctor at Ballad 
one of the first questions she asked him about was vision loss. My wife 
was told then my diagnosis was cordial blindness and a very severe TBI. 
Some time on the 21 October, I was air-evacuated to Landstuhl, Germany. 
There I underwent a re-exploration surgery before being transported on 
to the U.S. mainland then on 24 October I was admitted to Bethesda 
Naval Hospital. Late on the evening of 25 October I was transferred to 
WRAMC's ICU. There I remained in a coma-like state for 47 days.
Rehabilitation from Traumatic Brain Injury
    I was then sent to Poly Trauma VA Center in Richmond, VA, for 
rehabilitation for over a year. In January of 2007, I was discharged 
from inpatient care at Richmond where I had spent approximately one 
month. My inpatient care consisted of extensive and long program with 
variety of specialists KT, PT, RT, OT, mental health, speech, and 
vision sessions. After my discharge I began constant out patient 
therapies in February consisting of KT, PT, RT, OT, speech, vision and 
mental health.
    I went to the VA Blind Center in West Haven, CT, for 8 weeks in 
October 2007, and received training for blindness with the VA providing 
me with adaptive technology computer devices and training. The VA 
Eastern Blind Rehabilitative Center was excellent helping me go through 
extensive and thorough training in living skills, manual skills, 
orientation and mobility training, and computer training. I spent 
approximately 8 weeks going through extensive care and therapy to help 
me cope with everyday living with visual impairments and my TBI 
complications. I also found out how complex my visual impairments are 
and how to deal with them. What is difficult for most people to include 
my general doctors, and other providers is they don't understand the 
fact that my vision damage actually has nothing to do with my eyes 
themselves but stems from the damage to visual pathways impacting the 
parts of the brain that process my vision. My eyes are actually very 
healthy and were not directly damaged from the blast and it is my brain 
that will not allow my eyes to function appropriately. I have been left 
with no peripheral vision and about 8 degrees central core vision. The 
VA Blind Center was great help for me and my wife in the training they 
provided.
Technology and Communications Today for Disabled
    But today I come before the Senate Committee because over the past 
2 years it has become clear that there are big problems for disabled 
who suffer from blindness, deafness, or other problems in accessing the 
world in which we all live and work in now. Communication technology is 
advancing at rapid pace for all aspects of daily living, but those 
technologies are generally frustrating for many of us trying to use 
them.
    While I was not a telecommunications technology expert before my 
injury, the frustrating thing about recovery has been the things 
everyone else takes for granted or depend upon for every day use are 
giant challenge to use for the sensory disabled. I would quote what the 
National Council on Disability (NCD) Chairman in early 2009 wrote as 
further evidence that should help explain the problems before us today.
21st Century Access to Technology Issues
    ``The claim by some today has been made in recent times that 
emerging technology has made access to employment and independent 
living for the disabled easier than ever before.'' According to NCD 
Chairperson John R. Vaughn, ``The United States already has in place a 
string of Federal laws and regulations designed to guarantee various 
levels of access to telecommunications products and services.'' He 
states further ``That such service nevertheless leaves gaps in coverage 
and are rapidly becoming outdated as the analog technologies upon which 
they were premised are being substituted with technologies that are 
digitally and Internet-based.'' As Congress, the Federal Communications 
Commission (FCC), and other Federal or state agencies take on the 
daunting task of defining regulatory measures that will govern the 
deployment of these next generation communication technologies. Further 
he states ``The problems include inaccessible user interfaces on 
consumer equipment, lack of interoperable and reliable text 
transmissions, and obstacles to video and web programming all threaten 
the ability of individuals with functional limitations to gain equal 
access to these products and services. We stress that new 
communications technology that some take for granted as improving our 
lives can add more frustration and new barriers for those with sensory 
disability impairments.''
    Since my injury, using the television in my home has become an 
adventure at times. None of the on-screen menus are accessible to 
people like me, who are blind or visually impaired. I can't access the 
electronic program guide in order to see what shows are currently on or 
will be shown later in the evening. I am paying for this service and 
want to have access to it.
    Likewise and a big fear for the blind is I have to rely on my wife 
to tell me what the emergency crawls are saying when it flashes on TV 
screen. This is a very basic but vitally important information service 
that I should also have access to through a text to speech platform 
because in natural disasters a blind person at home may have no other 
warning system to avoid danger from storm or hurricane.
    Finally, the most difficult challenge that I have faced with 
technology has been identifying a cell phone that is accessible. I 
haven't been able to find a phone that suits my needs and is 
accessible. Not every person who is blind or visually impaired needs or 
wants to own a PDA. Blind Americans, like me, want to have options as 
consumers so that we can identify the most appropriate phone for our 
needs. Having accessible PDA's is important but also ensuring full 
accessibility to a wide spectrum of different phones is also vital.
    I want to sincerely thank both Representative Ed Markey (D-MA-7) 
who introduced H.R. 3101 and especially today Senator Pryor and Senator 
Kerry today for trying to help individuals with sensory disabilities 
deal with the problems of access to new technology with the hearing 
today on Senate bill S. 3304. Technology must be accessible for those 
who are disabled and Federal agencies must be able to develop policy or 
regulations to ensure that these changes are included in new technology 
development before we are left even further behind.
    I sincerely appreciate the chance to testify before your committee 
today and hope that I have helped put this into the perspective of just 
one blinded veteran and like thousands of other Americans with sensory 
impairments who want to be as fully independent as possible and I will 
take any questions you might have now.

    Senator Kerry. Thank you very much, sergeant. Thank you for 
your service and thank you for your statement today, which is 
very important and very helpful. We'll come back to you 
afterwards.
    Mr. Wlodkowski.

                STATEMENT OF THOMAS WLODKOWSKI, 
              DIRECTOR OF ACCESSIBILITY, AOL INC.

    Mr. Wlodkowski. Senator Kerry, Senator Pryor, Ranking 
Member Ensign and members of the Committee, thank you so much 
for taking the time to focus on this important topic of 
innovation and inclusion.
    My name is Tom Wlodkowski, and I am the Director of 
Accessibility at AOL.
    AOL is a leading global web-services company with an 
extensive suite of brands and a substantial worldwide audience. 
Our business spans online content, products and services 
targeted to consumers, content publishers and advertisers.
    Today, I will share some observations on the state of 
accessible technology, including the progress being made 
through collaboration between industry, government and 
consumers with disabilities. I will offer some thoughts on the 
importance of interoperability between information technology 
and assistance technology and how that can help us get products 
to market quickly.
    And, finally, I'll have some thoughts on how I believe 
government can help immediately to encourage innovation and 
drive down costs, which we all understand cost of assistive 
technology today is prohibitive, in many cases.
    I approach today's topic from a fairly unique perspective, 
or at least I like to think I do. As a blind citizen and avid 
user of information technology and assistive technology, I 
fully appreciate the impact that accessible, mainstream 
technology has on the lives of people with disabilities. I 
benefit from it every day.
    I also experience the frustration that was mentioned 
earlier when I try to use the Internet and technology that is 
not accessible.
    On the other hand, in my role at AOL, I experience the 
challenges facing industry to produce accessible products, and 
I understand the importance of flexibility to deliver an 
inclusive user experience. If we don't take anything else away 
from my testimony, I think the biggest piece would be ensuring 
flexibility in how accessibility is delivered I believe is a 
critical factor. There's a delicate balance between developing 
accessible products and bringing products to market quickly.
    And, finally, my perspective is also shaped from being in 
the WGBH Media Access Group up in Boston where I managed 
federal grants, largely from the U.S. Department of Education 
and National Science Foundation, to research solutions to 
advance accessibility of digital media technologies.
    I'd like to begin by speaking about the industry progress. 
Putting accessible technology into the hands of consumers 
requires navigation of a complex technical ecosystem with many 
interdependencies.
    For example, in order for AOL to produce a web page and 
make it accessible to someone who's blind, we rely on several 
layers of technology to work.
    First, the user's screen reader, regardless of whether it's 
built into a device or installed third-party software on a 
desktop computer, has to interoperate with a commonly-used web 
browser like Internet Explorer or Safari, and these 
technologies communicate back and forth, the screen reader and 
the web browser, through accessibility frameworks in the 
operating system.
    So to ensure greater interoperability, we formed the 
Accessibility Interoperability Alliance, which is a coalition 
of industry, information technology, and assistive technology, 
working together to ensure those frameworks are in place and 
continue to develop.
    Another example of collaboration through industry is 
ongoing work in the Society of Motion Picture and Television 
Engineers, SMPTE, to develop an industry standard to enable 
captioned video distributed over broadband Internet networks.
    Now, this work came out of a voluntary effort where AOL, 
Yahoo!, Google and Microsoft came together to fund the Internet 
Caption Forum. And once we realized we needed a broader group 
of stakeholders, we realized that the SMPTE group were content 
producers and broadcasters would be available to us was the 
best place to take up this work.
    Version 1.0 will be available later this year.
    Government helps. I encourage the Committee to take a look 
at the TEITAC Report--Telecommunications, Electronic and 
Information Technology Advisory Committee. That is a group from 
the Access Board--industry, international policymakers, state, 
local governments, Federal Government--coming together to 
figure out how to develop standards for Section 508 and 
guidelines associated with the Telecommunications Act.
    And, in closing, I believe that the best way we can move 
forward here is to forge stronger partnerships between 
corporations, industry, researchers and consumers with 
disabilities.
    And I thank you for your time, and I look forward to 
further questions.
    [The prepared statement of Mr. Wlodkowski follows:]

               Prepared Statement of Thomas Wlodkowski, 
                  Director of Accessibility, AOL Inc.
Introduction
    Mr. Chairman, and members of the Senate Commerce Subcommittee on 
Communications, Technology, and the Internet, thank you for taking the 
time to focus on this important topic of innovation and inclusion. My 
name is Thomas Wlodkowski, and I am the Director of Accessibility for 
AOL Inc. AOL is a leading global Web services company with an extensive 
suite of brands and offerings and a substantial worldwide audience. 
AOL's business spans online content, products and services that the 
company offers to consumers, publishers and advertisers. In addition, 
AOL operates one of the largest Internet subscription access services 
in the United States. I appreciate the opportunity to testify before 
this Subcommittee on the importance of innovation and accessible 
technologies to people with disabilities.
    Today I will share observations on the state of accessible 
technology, including the important progress being made through 
collaboration between industry, consumers and government. I will also 
offer some thoughts on the importance of interoperability between 
information technology (``IT'') and assistive technology (``AT''). I 
will highlight a critical barrier to access, specifically, the cost of 
assistive technology today. Finally, I will point out areas where I 
believe government can have an immediate impact, such as heightening 
awareness of solutions that exist today, preserving consumer choice and 
encouraging innovation.
    I approach today's subject matter from a unique perspective. As a 
blind citizen and avid user of both information technology and 
assistive technology, I fully appreciate the positive impact accessible 
mainstream technology has on the lives of people with disabilities. As 
an avid user of the Internet using mobile devices and desktop computers 
running a variety of software, I have experienced the frustration when 
these technologies are not accessible. In my role at AOL, I experience 
the challenges facing industry to produce accessible products and 
understand the importance of flexibility in enabling technology 
companies to deliver an inclusive user experience. I am well-versed in 
the delicate balance between developing accessible technologies and 
bringing products to market quickly. Last, my perspective is also 
shaped by my experience prior to joining AOL in 2002 when I was 
employed by the WGBH Media Access Group and I managed Federal grant 
projects to advance accessibility of digital media technologies. So, 
when tackling the important issue of innovation and inclusion through 
accessible technologies, I come at it from all angles.
Industry Progress
    I would like to speak first about the progress industry has made in 
the area of accessible technology. On July 26 of this year, America 
will celebrate the 20th anniversary of the Americans with Disabilities 
Act. While significant progress has been made in terms of providing 
access to employment, transportation, parks and public buildings, I 
think we can all agree there is still more work to do. The same holds 
true in the technology arena. When I joined AOL, very few technology 
companies had personnel dedicated to disability access and the practice 
of web accessibility was fairly young. Today, most major Internet 
companies employ people who focus on accessibility and design 
techniques for building accessible products continue to evolve. This 
increased focus is evident in the list of companies--representing a 
cross-section of the information and communications technology 
(``ICT'') industry--that attended the California State University 
(``CSUN'') International Technology and Persons with Disabilities 
conference in March of this year. For reference, CSUN is to the 
disability community what the annual Consumer Electronics show is to 
the mass market. AOL, Adobe, Apple, AT&T, Google, IBM, Microsoft, 
Research in Motion and Verizon, all participated alongside assistive 
technology vendors and accessibility researchers and demonstrated new 
and innovative technologies.
    Putting a broad array of accessible products and services into the 
hands of consumers with disabilities requires navigation of a complex 
technical ecosystem. There are many interdependencies. For example, for 
AOL to deliver an accessible web page to a blind consumer, we have to 
rely on several layers of technology. First, the user's screen reader 
technology, regardless of whether it is built into a device or is 
administered through software provided by a third party, must 
interoperate with a web browser such as Firefox, Internet Explorer, 
Opera or Safari. The web browser and the screen reader must be able to 
pass information back and forth. This information transfer is most 
effectively achieved by leveraging an accessibility framework supported 
by the operating system on which the web browser and screen reader 
software run. Second, AOL needs to add specific tags into our web 
content that the web browser and screen reader can utilize to enable 
efficient interaction by the blind consumer. Similar scenarios can be 
found across all segments of the ICT industry.
    To improve interoperability models, information technology 
companies and assistive technology manufacturers have formed an 
industry-funded, voluntary collaborative effort to address this 
important goal. The Accessibility Interoperability Alliance (``AIA'') 
is a coalition of IT and AT companies working to enable developers to 
more easily create accessible software, hardware, and web products. At 
the same time, a working group of the International Organization of 
Standards, ISO/IEC JTC1/SC35/WG6, is seeking to promote broader 
awareness of open accessibility application programming interfaces 
(``APIs'') provided by computer operating systems that allow AT vendors 
to build hardware and software products that interoperate with 
mainstream products. Improving interoperability, making it easier to 
create accessible products and promoting use of APIs should bring down 
the cost of accessible and assistive technologies and provide faster 
access to mainstream technology products for people with disabilities.
    Often, to address longstanding accessibility shortcomings, key 
stakeholders will gather to form a standards organization. A good 
example of this collaboration is ongoing work by the Society of Motion 
Picture and Television Engineers (``SMPTE'') to develop an industry 
standard for captioning video content distributed over broadband 
Internet networks. Version 1 of this standard is expected to be 
released later this year. In this case, a broad group of private sector 
stakeholders including content providers, broadcasters, caption and 
subtitling solution providers, professional equipment manufacturers and 
consumer electronics manufacturers have come together to define the 
best way forward. This SMPTE activity is a direct result of AOL, 
Google, Microsoft and Yahoo! voluntarily joining together with the WGBH 
Media Access Group to form the Internet Caption Forum (ICF) in 2007. 
Once it became clear that a broader group of stakeholders was required 
to achieve meaningful progress, the work of the ICF was picked up by 
SMPTE.
    Government often helps facilitate the dialogue between the IT 
industry, academics, consumers, the assistive technology industry and 
international stakeholders. Illustrative of this is the U.S. Access 
Board's activity with regard to developing technical standards for 
Section 508 of the Rehabilitation Act. The Telecommunications, 
Electronic and Information Technology Advisory Committee (``TEITAC'') 
brought together representatives from industry, Federal and state 
governments, the disability community and international policymakers to 
provide recommendations to the Access Board for updating the Section 
508 standards, which were developed as a result of 1998 amendments to 
the Rehabilitation Act, and the guidelines associated with Section 255 
of the Telecommunications Act. AOL was a member of TEITAC. While not 
directly affected by Section 508, AOL and other consumer-facing 
technology companies directly benefit from its outcome. The resulting 
Advanced Notice of Proposed Rule Making, released by the Access Board 
in March, covers topics included in legislation introduced by this 
subcommittee, such as real-time text, video closed captions and 
interoperability. I encourage this Subcommittee to review the findings 
of the TEITAC report and the eleven minority reports that were 
submitted in April 2008, and to consult with the Access Board as their 
rule-making process progresses to avoid potential conflicts. By 
leveraging the competitive market place and, where necessary, 
establishing clear goals and guidelines without favoring one technology 
over another, government can help drive the creativity and innovation 
of the technology industry to provide the best and most accessible 
technology products that meet consumer needs.
Innovation through Collaboration
    Innovation, both by assistive technology vendors and developers of 
mainstream information and communications technology, is critical for 
disability access. It is important to note that mainstream products 
that offer built-in accessibility often adopt techniques originally 
developed by assistive technology vendors to differentiate their 
offerings from similar products. For example, when I interact with a 
web page on my mobile device that has a built-in screen reader, I can 
limit my view of a web page to a list of available links, form controls 
requiring input and to other page elements. Without these navigation 
techniques, reading a web page would be extremely slow because screen 
readers read left to right, top to bottom. In order to provide 
consumers a high degree of choice in selecting the options that meet 
their unique needs, products and services need to be offered in a 
manner that is technologically compatible with the greatest number of 
devices and applications, not restricted based on one set of standards. 
Restrictive standards could result in increased costs, driving up 
consumer prices, which could in turn limit the number of people who 
actually benefit from the ``innovation.'' Thus, innovation is most 
likely to flourish where companies are able to approach the issue with 
great flexibility and are incentivized to do so, which in turn is 
likely to yield optimal choices for everyone.
    By collaborating with industry and disability groups, AOL has been 
able to deliver leading-edge features, innovative solutions and best 
practices, which bring the power of the Internet to many. For instance, 
AOL worked in tandem with Freedom Scientific, developer of the JAWS 
screen reader and a vendor that employs people with disabilities for 
support with product testing to ensure compatibility of the AOL Instant 
Messenger service (``AIM'') with the JAWS screen reader software. As a 
result, many people who are blind enjoy easy access to chat with their 
friends on AIM and other interoperable services. Relay service 
providers leverage the popularity of AIM in the deaf community and its 
wide availability on mobile devices, the web and on desktop computers 
to enable consumers to place and receive text and video relay calls. 
AOL also offers a fully-accessible web mail and calendar user interface 
that was lauded by the National Federation of the Blind and other 
leading disability organizations. This interface mirrors keyboard 
shortcuts used in popular desktop e-mail applications.
Awareness
    I would now like to shift gears and talk about an issue that is as 
important as building accessible technology--consumer awareness. In its 
National Broadband Plan (``NBP''), the Federal Communications 
Commission (``FCC'') recognized that one problem that consumers with 
disabilities face is that they are unable to find accessible 
communications technologies and assistive technologies, even when those 
technologies are available. In addition, the FCC found that consumers 
often do not have the training and support they need to use these 
products. The Commission recently announced that in July, it will 
launch a clearinghouse--an online space where consumers can find links 
to accessible products and product information provided by companies 
and vendors themselves. I agree with the Commission that lack of 
awareness of what exists today is one of the key issues to be solved. 
In addition to the online clearinghouse, I encourage consideration of 
other disability access components included in the plan. For example, 
leveraging the Universal Service Fund (``USF'') to subsidize the cost 
of assistive technology is a proposal that I believe warrants serious 
consideration.
Government Funded Activities
    In closing, I want to briefly discuss an area where government 
involvement could help drive technology access forward. Stronger 
partnerships between accessibility researchers and the ICT industry are 
necessary in order to speed the transfer of technology from the 
research lab to the marketplace. I would like to encourage this 
Subcommittee to examine the feasibility of implementing a grant model 
similar to the European Commission's ``FP7'' program. AOL is currently 
a corporate participant in the ``Open Accessibility Everywhere: 
Groundwork, Infrastructure and Standards'' project (commonly referred 
to as ``AEGIS''), which is funded under the ``FP7'' program. This 
project is a matching grant program, which brings together industry, 
research institutions and the disability community to prioritize, 
develop and test a range of open accessibility solutions. AOL's role in 
AEGIS is to integrate an accessibility framework into jQuery, an open 
source toolkit used by AOL and developers around the world to build 
dynamic web applications. When complete, accessible jQuery components 
will be available to the developer community at large.
Conclusion
    Collaboration, awareness and flexibility drive innovation in a way 
that will benefit consumers and allow industry to continue to offer new 
and exciting solutions. Collaborative efforts allow businesses to work 
directly with assistive technology vendors to include accessibility 
solutions at the ground floor, as the products are developed. Awareness 
is vital if these new technologies are to be adopted by the communities 
that need them most. And flexibility is imperative if industry is to 
develop solutions that actually meet consumers' needs.
    As the Director of Accessibility for AOL, I look forward to 
continuing efforts to bring accessible products to market for people 
with disabilities. As a member of industry, I look forward to 
continuing the rich set of dialogues, participating in advisory 
committees, and working to solve some of the problems that will make 
technology more available and affordable for people with disabilities. 
And as a consumer, I look forward to using those technologies in my 
daily life.
    Thank you for your attention and the opportunity to provide 
testimony on this important issue.

    Senator Kerry. Thank you very much, Mr. Wlodkowski.
    Ms. Scoggins. Scoggins or Scoggins?
    Ms. Scoggins [through interpreter]. Scoggins.
    Senator Kerry. Thank you.

 STATEMENT OF BOBBIE BETH SCOGGINS, ON BEHALF OF THE NATIONAL 
ASSOCIATION OF THE DEAF AND THE COALITION OF ORGANIZATIONS FOR 
                     ACCESSIBLE TECHNOLOGY

    Ms. Scoggins. Good afternoon, Mr. Chairman, Ranking Member 
Ensign and members of the Senate Subcommittee on 
Communications, Technology, and the Internet.
    My name is Bobbie Beth Scoggins. I didn't know how to 
pronounce that myself, but my parents did teach me to say 
Scoggins on that.
    I am currently the President of the National Association of 
the Deaf, which co-founded the Coalition of Organizations for 
Accessible Technology, along with Communication Service for the 
Deaf, the American Association of People with Disabilities, the 
American Council of the Blind and the American Foundation for 
the Blind.
    I am honored to be here today to talk about the innovation 
and inclusion 20 years after the Americans with Disabilities 
Act became law.
    The passage of the ADA has helped us move forward toward a 
more level playing field, especially by making communication 
accessible. Communication access enables the right to 
education, employment and to participate in the fullness of 
American civic life. Today, more than ever before, 
communication with everyone is the cornerstone of a wide open 
world.
    During the 1980s and 1990s, Congress took major steps to 
improve telecommunication access for people with disabilities, 
requiring relay services, hearing-aid compatibility, closed 
captioning and access to telecommunication services and 
equipment.
    All of this has opened up opportunities for deaf and hard-
of-hearing people to become lawyers, doctors, performing 
artists--such as my colleague, Russell, here--and so much more. 
But many newer innovations, especially technologies that use 
the Internet, are not covered by existing federal accessibility 
laws.
    Technology companies design their products and services for 
certain markets, often young people who are willing and able to 
try new things, but these products and services are often not 
accessible.
    That is why I'm here today to ask you to make the ``Equal 
Access to 21st Century Communications Act,'' S. 3304, the 
strongest possible legislation that will ensure that Americans 
with disabilities have access to the Internet and digital 
communication tools that are needed to enable them to maintain 
and increase their independence and productivity.
    When you tell all companies to make advanced communication 
services and equipment accessible, all companies will be 
affected equally. More importantly, building accessibility into 
new products and services is more cost efficient and effective 
than retrofitting.
    These are the principles of universal design contained in 
Section 255 of the Communications Act, and they are the 
principles that should be followed when this new bill is 
enacted.
    We are particularly pleased that S. 3304 includes 
provisions that require caption decoder circuitry or display 
capability in all video programming devices, extends closed 
captioning obligations to video programming distributed over 
the Internet, and requires easy access to closed captions via 
remote control and on-screen menus.
    S. 3304 will also require easy access to television 
controls and on-screen menus by people who are blind, restore 
video description rules and require access to televised 
emergency programming for people who are blind or have low 
vision.
    We are committed to continuing to work with you and others 
to ensure that S. 3304 achieves the greatest possible increase 
in communications access. For example, we advocate for defining 
covered advanced communications the same as H.R. 3101, to 
ensure that people who are blind have equal access to SMS text 
messaging, electronic mail and instant messaging and adoption 
of the undue-burden compliance standard for prospective 
obligations.
    This is vital for the deaf and hard-of-hearing community 
and for our friends in the blindness and visual-impairment 
community to ensure true equal access.
    I want to highlight a few other provisions in S. 3304. When 
I was growing up, I communicated with friends and relatives 
using TTYs. The TTYs use very old technology that is slow, 
outdated and doesn't work well over the Internet. Although we 
now have text messaging and instant messaging, these systems 
send texts in bursts of phrases or lines. They do not transmit 
letters as they are typed.
    This bill will establish a uniform and reliable real-time 
text standard to make sure that deaf and hard-of-hearing people 
can continue communicating in real-time over the Internet, 
which is especially important in emergency situations.
    In addition, many deaf and hard-of-hearing people regularly 
communicate using Internet forms of relay services. These relay 
services provide far more effective ways to communicate, but 
many cannot afford broadband services. This bill would allow 
income-qualified people with disabilities to use their Lifeline 
or Link-Up subsidies for broadband services.
    The bill also authorizes $10 million annually from the 
Universal Service Fund for specialized telecommunications 
devices needed by people who are both deaf and blind. The 
equipment they need, which often provides communication in 
Braille, costs thousands of dollars per unit. Though the bill 
asks for only a small amount of money, it will make a huge 
difference in the lives of these individuals.
    S. 3304 will also require the creation of a clearinghouse 
of information on accessible telephone-like products and 
services used for communication over the Internet. This 
clearinghouse, along with greater outreach and education by the 
FCC, will help educate consumers about products and services 
they can use.
    The bill will also ensure greater access by hearing-aid 
users, relay users and others, provisions that are described in 
more detail in my written testimony.
    Mr. Chairman, this concludes my testimony, and I hope this 
has given you more insight into why this bill is important for 
people who are deaf and hard-of-hearing, including the rapidly-
growing aging population. We must ensure access to 
communication, the gateway to the world.
    [The prepared statement of Ms. Scoggins follows:]

 Prepared Statement of Bobbie Beth Scoggins, on Behalf of the National 
    Association of the Deaf and the Coalition of Organizations for 
                         Accessible Technology
    Good afternoon, Chairman Kerry, Ranking Member Ensign, and members 
of the Senate Subcommittee on Communications, Technology, and the 
Internet. My name is Bobbie Beth Scoggins and I am honored to have this 
opportunity to speak to you about innovation and inclusion 20 years 
after the Americans with Disabilities Act (ADA) became law and the 
importance of ensuring communications access to the millions of 
Americans who are deaf, hard-of-hearing, late-deafened, deaf-blind, 
blind, or who have low vision.
    I am the President of the National Association of the Deaf (NAD). 
The NAD was established in 1880 by deaf leaders who believed in the 
right of the American deaf community to use sign language, to 
congregate on issues important to them, and to have its interests 
represented at the national level. These beliefs remain true to this 
day, with American Sign Language (ASL) as a core value. As a nonprofit 
national federation of affiliated organizations and individual members, 
the mission of the NAD is to preserve, protect, and promote the civil, 
human and linguistic rights of deaf and hard-of-hearing individuals in 
the United States of America.
    I am privileged to present this testimony on behalf of the 
Coalition of Organizations for Accessible Technology (COAT), which the 
NAD co-founded in 2007. COAT is a coalition of over 300 national, 
state, and community-based organizations dedicated to making sure that 
as our Nation migrates from legacy telecommunications to more versatile 
and innovative digital communication technologies, people with 
disabilities will not be left behind.\1\ This coalition's rapid growth 
and attraction to organizations across the Nation demonstrates the 
urgency of the issues being discussed at this hearing. COAT works on 
behalf of over 36 million individuals who are deaf or hard-of-hearing, 
more than 25 million individuals who are blind or who have vision loss, 
over 70,000 persons who are both deaf and blind, and millions of 
individuals with other disabilities who need accessible communications.
---------------------------------------------------------------------------
    \1\ Information about COAT and a list of COAT affiliates is 
available at http://www.coataccess.org.
---------------------------------------------------------------------------
    At the advent of 20th anniversary of the Americans with 
Disabilities Act (ADA), it is amazing to have witnessed and 
participated in the changes in accessibility for people with 
disabilities, and for us, individuals who are deaf or hard-of-hearing. 
The passage of ADA has helped us move toward a more even playing field. 
For people who are deaf and hard-of-hearing, communication access 
enables the right to education, employment, and to participate in 
fullness of American civic life and society. All of this is possible as 
a result of advancements in technology and the implementation of 
provisions of the ADA. Today, more than ever before, communication with 
everyone is the cornerstone of a wide open world!
    The last two decades have revealed the initiation of many changes, 
including the passage of the ADA, designed to improve the quality of 
life for individuals who are deaf and hard-of-hearing. The passage of 
the ADA has created a series of new moral and legal laws with 
ramifications for people with disabilities in economic, social, 
attitudinal, and cultural aspects.
    So what does this mean for deaf and hard-of-hearing individuals? 
Technological advancements, first through text-based communications and 
relay services, then evolving into video-based and captioned relay 
services and equipment have enabled greater independence and greater 
freedom than we have ever known. Wireless pagers, e-mail, and text 
messaging have also enabled us to be more independent and self-reliant. 
It was amazing to see how everyone has jumped on the bandwagon, trying 
to keep up as technology changed from the TTY, to text pagers, to 
iPhones, and to ever-changing products and services. It has become 
clear to deaf and hard-of-hearing consumers that advancements in 
technology and quality of services are bringing us closer to 
functionally equivalent communications.
    All of this has opened up so many doors and opportunities for deaf 
and hard-of-hearing people, moving into areas where they have never 
gone before, becoming lawyers, doctors, university professors, 
performing artists, and so much more. The sky is the limit with the ADA 
as the backbone to protect and promote our civil rights.
Introduction and Background
    During the 1980s and 1990s, Congress took major steps to improve 
telecommunications access for people with disabilities. In fact, as you 
know, this Subcommittee was responsible for helping to pass several 
pieces of legislation requiring relay services, hearing aid 
compatibility, closed captioning, and access to telecommunications 
services and equipment.
    Nowadays, new communications technologies are changing even more 
the way our society stays in touch and does business. Now there are all 
kinds of new opportunities to communicate with anyone, anywhere, at any 
time, from any place.
    But many newer innovations, especially technologies that use the 
Internet, are no longer covered by the Federal accessibility laws that 
now exist. What this means is that millions of Americans who, like me, 
cannot hear, may not be able to use these new technologies. That is why 
I am here today: to ask you to make the Equal Access to 21st Century 
Act (S. 3304) the strongest possible legislation that will ensure that 
I and other Americans who are deaf or hard-of-hearing have access to 
the Internet and digital communications tools that are needed to enable 
them to maintain and increase their independence, productivity, and 
privacy.
    We all know that technology companies design their products and 
services for certain markets--most of the time, these are American 
markets that are youthful and able-bodied--they have more money, and 
they are willing and able to try out new, fancy devices. But often 
these products or services are not built for people who have some 
difficulty hearing, seeing or speaking. Why don't companies include 
access when they develop services and products for the general public? 
I believe there are several reasons. Some companies are simply unaware 
of the needs of people with disabilities. Other companies don't want to 
use their resources to create accessible products if their competitors 
aren't doing the same thing. I understand that it is hard for people 
with disabilities to create enough market pressure to influence 
companies to design accessible products--especially when companies 
believe their money is better spent on trendy electronic features that 
appeal to a wider public.
    This is why we have come to you. If you direct all companies to 
make new Internet-based and digital innovations used for communication 
accessible, all companies will be affected equally and no one company 
will have an advantage over another. Even more importantly, if 
companies ensure that accessibility features are built into Internet 
services and products now, while they are still being developed, the 
costs of including these features will be a small fraction of the 
overall costs of producing these products. But if these companies wait 
until later, after their products are already on the market, 
retrofitting will cost a lot more and the resulting access is not 
likely to be as effective. These are the principles of universal design 
contained in Section 255 of the 1996 amendments to the Communications 
Act, and they are the principles that should be followed when this new 
bill is enacted.
    People with disabilities do not want to be relegated to obsolete 
technologies, or have to buy ``specialized'' equipment that is often 
hard to find and more expensive. They want an equal opportunity to 
benefit from the full range of mainstream Internet products that they 
see being used by their friends, relatives and colleagues. The ``Equal 
Access to 21st Century Communications Act'' (S. 3304) will help to 
accomplish these goals. Not only will it direct accessibility solutions 
for Internet-enabled and digital communication-based technologies, it 
will also require the creation of a clearinghouse of information on 
accessible telephone-like products and services used for communication 
over the Internet. This clearinghouse, along with greater outreach and 
education by the Federal Communications Commission (FCC) will help 
educate consumers about accessibility solutions and how to find 
products and services that they can use.
    We are particularly pleased that S. 3304 includes provisions that 
require caption decoder circuitry or display capability in all video 
programming devices; extends closed captioning obligations to video 
programming distributed over the Internet; and requires easy access to 
closed captions via remote control and on-screen menus. S. 3304 will 
also require easy access to television controls and on-screen menus by 
people who are blind; restore video description rules; and require 
access to televised emergency programming for people who are blind or 
have low vision.
    We are committed to continuing to work with you and others to 
ensure that S. 3304 achieves the greatest possible increase in 
communications access. We advocate for defining covered advanced 
communications to include non-interconnected as well as interconnected 
VoIP, video conferencing, and electronic messaging (to ensure access to 
SMS text messaging, electronic mail, and instant messaging); adoption 
of the well-established and appropriate undue burden compliance 
standard for prospective obligations; extending relay service 
obligations to non-interconnected VoIP providers; and timely action by 
the delegated authority. Addressing these concerns would benefit the 
deaf and hard-of-hearing community and our friends in the blindness and 
visual impairment community for whom these provisions are so vital to 
ensure truly equal access.
Real-Time Text in an Internet-Based World
    One of the most important things that S. 3304 does is that it 
guarantees deaf and hard-of-hearing people who rely on text (rather 
than voice) the ability to continue having conversations in real-time, 
as communications move to digital and Internet-based technologies. When 
I was growing up, I communicated with friends and relatives using TTYs. 
But TTYs use very old technology (``Baudot''). These devices are also 
very slow (transmitting a maximum of 60 words per minute), work only in 
one direction at a time (you have to wait until one party finishes 
typing before you can respond), and generally are not reliable over 
Internet networks. Their many drawbacks have caused me and many other 
deaf people to turn to text messaging and instant messaging as our 
principal means of text communication. But the problem is that these 
newer methods do not transmit letters as they are typed (as TTYs did). 
Instead, with these data-based devices, individuals type and then send 
text in bursts of phrases, lines, or sentence-by-sentence, rather than 
sending each character as it is typed.
    For millions of people who are deaf or hard-of-hearing, 
particularly people who do not communicate in American Sign Language, 
communicating by text is functionally equivalent to communicating by 
voice. Just like there are times when hearing people need to have a 
conversation in real-time (as compared to sending text messages on cell 
phones or instant messages over a computer), there are times that 
people who cannot hear need to have their message received as it is 
being sent. For example, in emergencies it is very important to be able 
to convey and receive every piece of information as quickly as possible 
and at the exact time that it is happening.\2\ S. 3304 will ensure that 
there is a uniform and reliable real-time text standard so that people 
who are deaf, hard-of-hearing or who have a speech disability can 
communicate in a manner that is more functionally equivalent to 
communication between people who can use their voices.
---------------------------------------------------------------------------
    \2\ AOL began offering real-time text communication in 2008. Their 
press release explained: ``The new real-time IM feature within AIM 
enhances instant message conversations by enabling users to see each 
letter that a buddy types rather than waiting for a friend to press the 
send button to view and read a message. This enables deaf users to 
respond and react to words as they are typed just as hearing people 
would do as words are spoken in a voice conversation.'' AOL Press 
Release, ``AOL Launches Real-Time Instant Messaging Targeted to Deaf 
and Hard of Hearing Users'' (January 15, 2008).
---------------------------------------------------------------------------
Universal Service
    In addition to enjoying text-messaging through hand-held devices, a 
great number of deaf people now use Internet-based forms of relay 
services, and in particular Internet Protocol text and captioned 
telephone services, and video relay services (VRS). The reason is 
simple: these forms of relay service offer far more effective ways to 
communicate than traditional text-based relay services. Internet-based 
text and captioned telephone relay services allow the transmission of 
text at much faster speeds than TTYs, and enables conversations to 
travel simultaneously in both directions. VRS allows individuals who 
use American Sign Language to have conversations that flow more 
naturally, quickly, and transparently between the parties, achieving a 
telephone experience that more closely parallels the experience of 
people without hearing disabilities. Approximately one million deaf 
individuals who sign can benefit from VRS as well as from being able to 
have direct video conversations with other people who sign. In 
addition, millions more people who are hard-of-hearing can benefit from 
using Internet-based video connections to see people's faces as they 
speak and lip read conversations. Likewise, more than 2.5 million 
people whose speech is difficult to understand may benefit from video 
communication because their gestures and facial expressions can be seen 
by the parties to the call.
    Unfortunately, not every person can afford to pay for the high 
speed broadband Internet service that is needed to support Internet-
based text, captioned, or video communication. Some of these 
individuals meet the income criteria to be eligible for Lifeline/Link-
Up phone service subsidies, but they cannot use these discounts toward 
the cost of broadband services. Because the Lifeline and Link-Up 
programs are tied to telephone network-based services, these programs 
offer no financial assistance for low income individuals with 
disabilities who want to replace their TTYs with improved, Internet-
based forms of communication. Under S. 3304, individuals with 
disabilities who need the Internet to communicate over distances would 
be able to choose whether to use their Lifeline or Link-Up subsidies 
for telephone network-based services or high speed broadband services.
    A second universal service provision addressed by S. 3304 will 
greatly impact people who are both deaf and blind. Although the 
universal service provisions enacted by Congress in 1996 were designed 
to make sure that everyone in America has access to telephone services, 
one group of Americans--deaf-blind Americans--continue to be denied 
this promise. Although a few states have programs that distribute 
specialized customer premises telephone equipment, the vast majority of 
these programs do not provide telecommunications equipment that is 
accessible to deaf-blind people. One reason is that typically this 
equipment (such as communication devices with refreshable Braille key 
pads) costs thousands of dollars per unit. The result is that of all 
people with disabilities, deaf-blind individuals are the least able to 
access current telecommunications systems.
    It is for this reason that we are asking for a very small portion 
of the Universal Service Fund (USF)--$10 million annually--to be set 
aside each year to fund the distribution of specialized 
telecommunications devices needed by approximately 100,000 Americans 
who are deaf-blind. The small size of this targeted amount will not be 
overly burdensome for the USF, but will make a huge difference in the 
lives of people who are deaf-blind, which remains one of the most 
underserved populations in telecommunications history. Allocating these 
funds will also inform the world that, as the United States moves to 
upgrade its telecommunications systems, it is not leaving behind this 
previously unserved population of individuals.
Hearing Aid Compatibility and Relay Services
    Another important provision in the bill will ensure that millions 
of people who use hearing aids, cochlear implants, and other assistive 
hearing devices, will be able to use these devices with telephones that 
connect via the Internet. Federal law has required wireline, cordless, 
and many wireless telephones to be hearing aid compatible since 1988. 
However, new smart phones entering the marketplace are not working for 
hearing aid users, and their coverage under this law has come under 
question. As an aging nation, we simply cannot go forward without 
ensuring that these Internet-enabled phones are also hearing aid 
compatible.
    Also important is a provision in S. 3304 to allow users of one type 
of relay service, such as VRS, to call a user of another form of relay 
service, for example, a text relay service. The FCC has been 
interpreting the Communications Act to mean that relay services can 
only be used to provide telephone services between a person with a 
hearing or speech disability and a person without a disability. The 
result has been that people with speech and hearing disabilities who 
use different technologies, equipment, and relay services have not been 
able to call each other. This surely could not have been Congress's 
intent back in 1990 when it directed the creation of a nationwide 
system of telecommunications relay services to integrate people with 
hearing and speech disabilities into the public telecommunications 
network!
Conclusion
    Mr. Chairman, this concludes my testimony. We call upon Congress to 
ensure that people with disabilities--including the rapidly growing 
population of senior citizens who experience reduced hearing with 
increasing frequency and our veterans returning with hearing loss--are 
not left behind as communication technologies move to the Internet and 
new digital technologies. Thank you for the opportunity to speak before 
you and members of the Senate Subcommittee on Communications, 
Technology, and the Internet. I hope my testimony has given you more 
insight into why this bill is important for people who are deaf and 
hard-of-hearing. I also hope my testimony has encouraged you to support 
making S. 3304 the strongest legislation possible to ensure that people 
with disabilities have access to communication--the gateway to the 
world.

     Senator Kerry. Thank you very much, Ms. Scoggins. It has 
indeed given us terrific insight, and I appreciate it.
    Mr. Harvard.

        STATEMENT OF RUSSELL HARVARD, ON BEHALF OF THE 
     NATIONAL ASSOCIATION OF THE DEAF AND THE COALITION OF 
            ORGANIZATIONS FOR ACCESSIBLE TECHNOLOGY

    Mr. Harvard [through interpreter]. Good afternoon, Mr. 
Chairman, Ranking Member Ensign and members of the Senate 
Subcommittee on Communications, Technology, and the Internet. 
Thank you for giving me the opportunity to appear before you 
today. I'm honored to have this opportunity to testify, and I'm 
here on behalf of the National Association of the Deaf and the 
Coalition of Organizations for Accessible Technology.
    Like many consumers, I'm a big fan of technology. 
Technology empowers me to access the information I need to be 
successful. Unfortunately, all too often, I, and other people 
like me, have been left behind as technology has advanced.
    Like the Americans with Disabilities Act did 20 years ago, 
the ``Equal Access to 21st Century Communications Act,'' S. 
3304, is a major step forward towards ensuring equal access and 
equal opportunity for people with disabilities.
    Today, I will address the provisions that concern access to 
video programming by people who are deaf or hard-of-hearing.
    For example, back in the 1980s, our family paid $200 for a 
caption decoder box. When the decoder box got too hot, the 
captions would flicker, making them impossible to read. I 
remember my stepmom would not let me watch TV an hour before 
All My Children started just so the decoder box would be cool 
enough for her favorite program.
    [Laughter.]
    Finally, Congress passed a law to require all TVs with 
screens larger than 13 inches to have decoder chips to display 
closed captions. That was a great law.
    But times and technology have changed. Now, my friends can 
watch their favorite shows on wireless TVs, MP3s and other 
devices. Hardly any of these smaller devices display closed 
captions. Once again, I and others who are deaf or hard-of-
hearing are left out of this whirlwind of technological change.
    So we are coming back to you 17 years after the Decoder Act 
was passed. The limitation of the 13-inch screens has worn out 
its welcome. Now, all devices that receive or display video 
programming should be required to display captions.
    We also need to make sure that we can actually figure out 
how to turn on the captions. Under the FCC rules, I am supposed 
to be able to control the font, size and color of closed 
captions, but the new digital TVs and set-top boxes are so 
complicated to use that few people have figured out how to 
access these features.
    S. 3304 will fix this. It will enable viewers to control 
captioning features on the top tier of the on-screen menu. It 
will also require video devices with remote controls to have a 
caption button. Caption control to us is what volume control is 
to you.
    This brings me to my final concern. We also need to make 
sure that the programs received by those devices actually 
contain captions. As of now, only a handful of TV shows on the 
Internet have captions. This is true even for programs that had 
captions when they were shown on TV.
    I remember not having access to many regular TV programs. 
Like when South Park first came out, everyone said it had 
inappropriate language. Naturally, this made me want to see the 
show even more. But the show wasn't captioned, and I could not 
lip read the itty-bitty mouths of the cartoon characters.
    [Laughter.]
    Mr. Harvard [through interpreter]. As a young adult, 
keeping up with the cultural experiences of my peers was very 
important. Whenever access was denied to me, I felt--and was--
left behind.
    In 1996, thanks to your work, Congress fixed all this by 
passing a new law requiring nearly all TVs to have captions. 
This had a huge impact on me. Captions allow me to be in touch 
with what is going on in the world.
    But now that everything is moving to the Internet, I am 
again falling behind, just like generations of my family before 
me. Imagine, if you will, hearing the collective groans of 
millions of people who are deaf or hard-of-hearing expressing 
their frustration as they see history repeating itself all over 
again.
    In conclusion, on behalf of millions of people who are deaf 
and hard-of-hearing, I urge Congress not to leave us behind as 
new Internet and digital-video programming technologies become 
available to the general public. I ask you to pass legislation 
that will continue protecting our ability to access these 
emerging video technologies. Thank you.
    [The prepared statement of Mr. Harvard follows:]

   Prepared Statement of Russell Harvard, on Behalf of the National 
    Association of the Deaf and the Coalition of Organizations for 
                         Accessible Technology
    Chairman Kerry, Ranking Member Ensign, and members of the Senate 
Subcommittee on Communications, Technology, and the Internet, thank you 
for giving me the opportunity to appear before you today to discuss 
innovation and inclusion 20 years after the Americans with Disabilities 
Act became law. My name is Russell Harvard and I am an actor, recently 
sprouted in the film business and looking forward to growing in my 
field. I am proud to say I performed the role of Daniel Day Lewis's son 
in the double-Oscar winning film, There Will Be Blood, and had the 
privilege of playing the villain in CSI: New York with my friend, 
Marlee Matlin. I also perform a strong thread of songs in American Sign 
Language. I am deaf, the third generation of deaf individuals in my 
family.
    I am honored to offer my testimony today on behalf of the National 
Association of the Deaf and the Coalition of Organizations for 
Accessible Technology (COAT). COAT is a coalition of over 300 national, 
state, and community-based organizations dedicated to making sure that 
as our Nation migrates from legacy telecommunications to more versatile 
and innovative digital communication technologies, people with 
disabilities will not be left behind.\1\ This coalition's rapid growth 
and attraction to organizations across the Nation demonstrates the 
urgency of the issues being discussed at this hearing. COAT works on 
behalf of over 36 million individuals who are deaf or hard-of-hearing, 
more than 25 million individuals who are blind or who have vision loss, 
over 70,000 persons who are both deaf and blind, and millions of 
individuals with other disabilities who need accessible communications.
---------------------------------------------------------------------------
    \1\ Information about COAT and a list of COAT affiliates is 
available at http://www.coataccess.org.
---------------------------------------------------------------------------
    I join all COAT affiliates in being excited about the promises of 
new Internet Protocol and digital technologies. Like all consumers, we 
look forward to the benefits of technological advances. Unfortunately, 
history has shown that, all too often, people with disabilities have 
been left out or left behind as these advances have taken place. 
Typically, it has taken acts of Congress to put us on a level playing 
field with our hearing and sighted peers. For example, I can remember 
when our family needed a separate decoder box to receive and display 
captions on our television sets. Without a requirement for television 
sets to decode captions, television set manufacturers did not include 
this feature on their own. When our decoder box got too hot, the 
captions would flicker, making them hard to read. As a consequence, the 
family member who got to use the decoder box first was the only one who 
could really enjoy--and understand--his or her television program. What 
really sticks out in my mind is not being able to watch any programs 
shown just before All My Children. My step-mom kept me from watching 
any television for an hour before that show, so the decoder box would 
be cool enough to display steady captions for her favorite program!
    I'm grateful that in 1990, Congress took care of this problem. In 
that year, not only did you enact the Americans with Disabilities Act, 
you also enacted the Television Decoder Circuitry Act, which required 
all televisions with screens at least 13 inches in size, to receive and 
display closed captions. The Decoder Act made video programming 
technology more accessible for people who are deaf or hard-of-hearing. 
Now we need to take another step forward and make it equally 
accessible.
    At the outset, I want to say that, like the ``Twenty-first Century 
Communications and Video Accessibility Act'' (H.R. 3101), the ``Equal 
Access to 21st Century Communications Act'' (S. 3304) is a major step 
forward toward expanding communications protections for people with 
disabilities. Today I will address the various provisions that concern 
access to video programming by people who are deaf or hard-of-hearing. 
I understand that my colleagues on this panel will address other 
provisions.
Ensuring Accessible Television Programming over the Internet
    This Subcommittee is all too aware that our television environment 
moved recently from analog to digital technology. I know that you went 
to great lengths to make sure that all Americans were aware of this 
major change in the way we watch television. This move has changed the 
viewing experience of many Americans. Not only is the digital picture 
clearer and--I am told--its sound crisper, but more and more, 
television programming is no longer tethered to what we have come to 
know as a ``television set.'' Internet-based video programming services 
that offer television programs, movies, and live video streaming are 
proliferating at lightning speed. In fact, it seems like every time I 
watch a television show on my old fashioned television set, an 
announcer at the end of the show tells me that I can watch the show 
many more times with enhanced features, such as deleted scenes and 
interviews with actors, on the Internet. But for me, these promises of 
a wondrous new world of video programming are largely empty.
    You see, only a handful of television shows available on the 
Internet have closed captioning. This is true, even when these very 
same programs were previously shown on television with captions. The 
result is that I, along with millions of other people who are deaf or 
hard-of-hearing, am denied access to thousands of hours of video 
programming.
    It was not that long ago that I and others who are deaf or hard-of-
hearing did not have access to many TV programs on regular television 
channels. For example, I remember when South Park came out and lots of 
talk circulated about the ``inappropriate'' language used in that 
program. Of course, this piqued my interest. My curiosity could not be 
satisfied, however, because South Park was not captioned and lipreading 
the animated characters with their itty-bitty nonsensical mouths was 
impossible. The only way I could know what was going on was to ask some 
of my hearing friends what the show was about.
    Being able to understand South Park cartoon characters may sound 
trivial to some people, but, as a young adult, keeping up with the 
cultural and social experiences of one's peers is very important. 
Whenever access is denied to me, I feel--and am--left behind. Another 
example of inaccessible programming in the past was MTV music videos, 
which were very popular during my pre-teen years. These, too, were 
rarely captioned. Although my step-sister was nice enough to write down 
or sign the lyrics, this did not afford me the independence that 
everyone else had, and I surely desired. Just imagine not being able to 
watch TV on your own, and having to ask a family member or friend to 
tell you what is being said.
    But my generation is also lucky. Thanks to the work of this 
Subcommittee and others in Congress, in 1996, you passed a law 
requiring nearly all television shows to have captioning. That law went 
into full effect for new programs in January 2006 and, since January 
2008, has required 75 percent of older television shows (shows first 
shown or exhibited prior to 1998) to have captions. Closed captioning 
has made a huge impact on the lives of every deaf or hard-of-hearing 
person, including me. Captions allow me to be in sync with what is 
going on in the world. They let me watch television with my family and 
friends. They enable me to get the information I need to develop and 
share my views on political campaigns. They let me keep pace with 
current trends and maintain my independence and my sense of dignity.
    But, it seems like just as soon as we finally have access to nearly 
all of the news, information, and entertainment on television, we now 
find that when we turn to that video programming on the Internet, we 
are again left behind, unable to understand what is going on. Because 
captioning of television shows on the Internet is not yet required by 
law, hardly any of these programs are captioned. Like the deaf 
generations of my family that came before me, I am again confronted 
with having to guess at what is being said.
    Additionally, for me, not having the ability to watch video 
programming on the Internet is far more than just an annoyance; it 
affects my ability to compete in my profession. As an actor, it is a 
significant hardship not to be able to have access to all mediums of 
video programming. I am always looking to improve my skills: being able 
to re-watch the work of other actors is something that can help me 
immensely in my work. Not being able to do so makes technology regress 
for me as it progresses for everyone else. I am not alone in my 
frustration. When something as popular and important as Internet 
programming is not accessible to us, the reaction from the deaf and 
hard-of-hearing community is very strong. Imagine, if you will, hearing 
the collective groan of millions of people expressing their frustration 
as they see history repeating itself all over again.
    To ensure equal access, we ask Congress to make clear that the 
captioning obligations that were passed in 1996 and apply to video 
programming distributors also apply to their programming distributed 
over the Internet.\2\ Specifically, we want legislation to make sure 
that captions are available for the following types of Internet 
programming:
---------------------------------------------------------------------------
    \2\ A video programming distributor is defined in the FCC's rules 
as ``[a]ny television broadcast station licensed by the Commission and 
any multichannel video programming distributor as defined in  
76.1000(e) of [Chapter 47], and any other distributor of video 
programming for residential reception that delivers such programming 
directly to the home and is subject to the jurisdiction of the 
Commission.'' 47 CFR  79.1(a)(2). A ``multichannel video programming 
distributor'' is defined as ``an entity engaged in the business of 
making available for purchase, by subscribers or customers, multiple 
channels of video programming. Such entities include, but are not 
limited to, a cable operator, a BRS/EBS provider, a direct broadcast 
satellite service, a television receive-only satellite program 
distributor, and a satellite master antenna television system operator, 
as well as buying groups or agents of all such entities.'' 47 CFR  
79.1000(e).

  <bullet> Pre-produced video programming that was previously captioned 
        for television viewing in compliance with Section 713 of the 
---------------------------------------------------------------------------
        Communications Act.

  <bullet> Live programming that must be captioned for television 
        viewing in compliance with Section 713 of the Communications 
        Act.

  <bullet> New web-based video programming provided by, or generally 
        considered comparable to programming provided by, a television 
        broadcast station that is distributed and exhibited over the 
        Internet for residential use. This category is not intended to 
        cover user-generated content uploaded by private citizens, but 
        rather to capture the same type of programming that video 
        programming distributors would otherwise exhibit on television 
        channels.

    Some of you may have questions about the extent to which captioning 
of Internet-based videos is technologically feasible. While I am no 
expert on this issue, I know that this is already being done today on a 
few Internet sites, such as the NBC/Fox Hulu and ABC.com video 
websites, and in a number of movies available from Apple's iTunes. In 
addition, I am told that there are a number of ways that content 
providers and distributors can convert their traditional television 
captions into captions for Internet-based distribution, or create and 
display original captions for online media.
Accessible Video Programming Equipment
    Expanding the captioning laws to the Internet will solve part of 
the problem being confronted by people with disabilities who want 
access to video programming, but there is still more work to do. It 
used to be that the majority of televisions ranged from 19 to 32 
inches. So when Congress enacted the Decoder Circuitry Act of 1990, 
requiring all television sets with screens larger than 13 inches to 
include decoder chips that could display captions, it was confident 
that the overwhelming majority (approximately 96 percent) of all 
television sets would be covered by the new law.\3\
---------------------------------------------------------------------------
    \3\ In 1989, TV Digest reported that 96 percent of new televisions 
had screens that were 13 inches or larger, 12 TV Digest (Elec. Indus. 
Ass'n, September 11, 1989); See also DuBow, ``The Television Decoder 
Circuitry Act--TV For All,'' Temple Law Review 64, No. 2 (1991) and 
Strauss, A New Civil Right, Telecommunications Equality for Deaf and 
Hard of Hearing American (Washington, D.C.: Gallaudet Press, 2006), p. 
230, for more on the 13-inch screen size minimum.
---------------------------------------------------------------------------
    But times and technology have changed--dramatically! Now my friends 
and colleagues are able to watch their favorite shows on their cell 
phones. They can download and playback sporting events on their MP3 
players. They can store movies on their compact laptops. And phone 
companies and satellite radio services are now in the business of 
providing television programming! Once again, I and others who cannot 
hear are finding ourselves left out of this whirlwind of technological 
change. Although we can watch captioned television shows when we are in 
our own homes, when we are on the go, we are typically out of luck.
    So we come to you, 17 years after the Television Decoder Circuitry 
Act was enacted. Again, we thank you for passing this wonderful law, a 
law that truly changed my life, as well as the lives of millions of 
deaf and hard-of-hearing people who would otherwise not have had access 
to television programming for the last decade and a half. We ask that 
you now take this law to its next level. The 13-inch screen limitation 
has worn out its welcome. We are now able to display television 
programming on screens of all sizes. We urge you to get rid of that 13-
inch restriction and extend the requirement to enable the display of 
captions to all video devices that receive or display video 
programming, including devices that can receive or display video 
programming carried over the Internet. In this modern digital era, we 
all know that devices that receive video programming can be as large as 
a living room wall or as small as a handheld MP3 player. All of these 
devices need to have the capacity to display closed captioning.
Accessible User Interfaces
    The last point I want to make has to do with my ability--or should 
I say my inability--to figure out how to activate captions on 
television sets, even when captions are provided. In this regard, I ask 
the members of this Subcommittee to try something out. The next time 
you are in a hotel and, after a long day, sit back to watch the news or 
enjoy a movie on a brand new digital television, try to turn on the 
captions. The first thing you will probably do is look at the remote 
control. If you are lucky, there will be a caption control button 
there, and that will end your search. More likely, what you will find 
are buttons for volume control, buttons for channel selection, and 
buttons to perform a host of other functions that may or may not make 
any sense to you. Chances are that you will not find a caption control 
button.
    Your next strategy may be to turn on the television's on-screen 
menu and try to find the captions that way. I wish you the best of luck 
as you try to navigate the maze of complicated choices. If this attempt 
fails as well (which it has for me on many occasions), your third 
option will be to call the front desk and have them send up the hotel 
engineer. You can then laugh to yourself as you watch him go through 
the same steps you did. I cannot begin to tell you how often this scene 
is repeated across America. In the past, the problem of not being able 
to access closed captions was largely limited to televisions located 
outside the home. People generally were able to figure out how to turn 
on captions on televisions that they purchased because they had the 
manuals to do so. But now, even finding the captioning features on 
digital and HDTVs purchased for use inside the home or on the set-top 
boxes provided by their TV subscription services has become a 
considerable chore, and sometimes a virtual impossibility.
    The shame of it is that, in the year 2000, the FCC issued wonderful 
rules requiring enhanced captions on all digital televisions. Unlike 
captioning on analog television sets, which only appear as white 
letters on a black background, digital televisions must provide viewers 
with the ability to control caption fonts, sizes, colors and 
backgrounds. The FCC created these rules so that people who can not 
hear can reap some of the fantastic benefits that digital television 
has to offer. But as I have explained, figuring out a way to get access 
to these captioning features is not so easy--in fact, it is typically 
quite difficult. My guess is that most deaf and hard-of-hearing people 
don't even know that these captioning options exist for them.
    The proposed legislation will fix this. It will require devices 
that display video programming to provide a conspicuous means of 
accessing closed captioning (along with video description for people 
who are blind or have vision loss). This can be achieved by adding a 
button for captioning on the remote controls of video programming 
devices and by enabling viewers to control captioning features on the 
top tier of the equipment's on-screen menu. Captions enable us to 
understand the content of a program, the same way that the sound track 
enables people who can hear to follow a program's plot. It should be as 
easy for people who are deaf and hard-of-hearing to find and control 
captions as it is for hearing people to control the volume and other 
audio features on a TV set.
Conclusion
    In conclusion, on behalf of millions of Americans who are deaf, 
hard-of-hearing, late-deafened, deaf-blind, blind, or have low vision, 
we call upon Congress not to leave us behind as new Internet and 
digital video programming technologies become available to the general 
public. I am a big fan of technology: it empowers me to do things I 
otherwise could not do and allows me to access the information I need 
to be successful--both in my profession and as a citizen who actively 
participates in our Nation's civic affairs. On behalf of the National 
Association of the Deaf and the Coalition of Organizations for 
Accessible Technology, I thank the Subcommittee for this opportunity to 
share our concerns and urge you to make this legislation as strong as 
it can be to safeguard continued access to emerging communications and 
video programming technologies.

    Senator Kerry. Thank you, Mr. Harvard. Terrific testimony. 
We appreciate it.
    Mr. McCormick.

   STATEMENT OF WALTER B. McCORMICK, JR., PRESIDENT AND CEO, 
               UNITED STATES TELECOM ASSOCIATION

    Mr. McCormick. Mr. Chairman, Senator Pryor, thank you for 
the opportunity to appear before you today. I can say that it 
is--it's humbling. It is a great honor for me to have the 
opportunity to share in the testimony of this compelling and 
poignant and very important hearing.
    As you know, I'm Walter McCormick. I'm the President and 
CEO of U.S. Telecom, the broadband association. And we're an 
organization whose member companies are united by a 
determination to deliver advanced communication services to all 
Americans, an objective that we know this subcommittee shares.
    I'm proud to say that our industry has had a long history 
of supporting access for people with disabilities. Indeed, Dr. 
Alexander Graham Bell was a teacher of the deaf, and his 
invention of the telephone in 1876 grew out of his efforts to 
devise a hearing-assistance device.
    Our industry pioneered the development of the first hearing 
aids and artificial larynxes. And as we approach the 20th 
anniversary of the Americans with Disabilities Act, I would 
note that Title IV, mandating the establishment of a nationwide 
telecommunications relay service, was one of the first 
completed and least controversial portions of that landmark 
legislation.
    Similarly, during the 1990s, our industry worked closely 
with the disability community to develop what is now Section 
255 of the Communications Act, which requires that 
telecommunications services and equipment be made accessible by 
people with disabilities.
    So, Mr. Chairman, two years ago, when your colleague from 
Massachusetts, Representative Markey, urged that we commence 
discussions with COAT, we went to work.
    Those discussions were comprehensive and productive. They 
spanned more than 15 months, and, in the end, they were 
illuminating. Together, we more precisely identified the needs 
of the disabled. We gained an understanding of how current 
procedures at the FCC frustrate the disability community.
    Our joint effort to address this concern is largely 
reflected in H.R. 3101, the Twenty-First Century Communications 
and Video Accessibility Act, which Mr. Markey introduced last 
June.
    And, as a result, we really appreciate the Senate's 
attention to this important initiative. We are grateful for 
Senator Pryor's introduction earlier this month of S. 3304, and 
for your co-sponsorship, Mr. Chairman, together with Senators 
Dorgan and Conrad. This is an important step in updating the 
Nation's communications accessibility laws.
    Moving forward, however, we hope the Committee will address 
two key provisions in ways that we believe will improve your 
bill and better reflect the aspirations of both the disabled 
community and our industry.
    First, S. 3304 inadvertently, but unjustifiably, 
distinguishes between competing technologies that offer the 
same or similar services, leaving entirely to the FCC's 
discretion the question of whether it is necessary for a wide 
variety of applications and services to be made accessible.
    So, for example, whereas the e-mail services offered by my 
member companies may be automatically covered by the bill, 
other identical services, such as Gmail and Hotmail, are only 
covered if the FCC determines that it's necessary to do so. We 
don't believe the FCC should have the discretion to decide 
whether applications or services are necessary for Americans 
who are disabled.
    We urge you to adopt the clear definition of advanced 
communications found in the House bill.
    So, Mr. Chairman, we would urge you to instead adopt the 
clearer definition of advanced communications that's found in 
the House bill, a definition on which the National Broadband 
Plan also relied in recommending the Congress modernize 
accessibility laws.
    Second, S. 3304 instructs the FCC to apply new 
accessibility requirements to Internet-based services and 
equipment where doing so is achievable. But the bill provides 
little insight into what the word ``achievable'' means, and 
there's no regulatory precedent to fill the gap.
    The inevitable consequence of this ambiguity will be 
regulatory jockeying and litigation. Americans with 
disabilities should not have to wait for those legal battles to 
play out. Prior to the passage of the ADA, Americans with 
disabilities justifiably grew impatient with claims that making 
public accommodations accessible just couldn't be done at 
reasonable cost.
    What our industry has found in the course of the last 25 
years is that both we and the disabled community benefit from 
the certainty that sound and sensible directives provide. We 
believe that with such directives, talented engineers and 
business people across the Internet landscape will respond in 
good faith.
    Again, thank you for your invitation to appear today, and 
we pledge our support for making the many opportunities 
afforded by broadband accessible to all Americans.
    [The prepared statement of Mr. McCormick follows:]

  Prepared Statement of Walter B. McCormick, Jr., President and CEO, 
                   United States Telecom Association
    Chairman Kerry, Ranking Member Ensign, and members of the 
Subcommittee:
    Thank you for the opportunity to appear before you today to discuss 
modernizing the laws providing accessibility to communications for 
disabled Americans by covering new and developing Internet Protocol-
based and video programming technologies.
    I am Walter McCormick, President and CEO of the USTelecom 
Association. USTelecom represents innovative companies ranging from 
some of the smallest rural telecoms in the Nation to some of the 
largest companies in the U.S. economy. Our members offer a wide range 
of services across the communications landscape, including voice, 
video, and data over local exchange, long distance, Internet, and cable 
networks. What unites our diverse membership is our shared 
determination to deliver those services to all Americans--a commitment 
we know this Subcommittee shares.
    Our industry has a long history of supporting communications access 
for people with disabilities. In fact, it reaches back to the very 
foundations of our business. People often forget that Dr. Alexander 
Graham Bell was himself a teacher of the deaf and that Bell's invention 
of the telephone in 1876 grew out of his efforts to devise a hearing 
assistance device. The primary financial backers of Bell's electrical 
experiments were the grateful parents of some of his students.
    But our industry's commitment to the disabilities community did not 
stop there. Bell Labs and Western Electric were pioneers in the 
development of the first hearing aids and artificial larynxes. We later 
participated in the establishment and deployment of telecommunications 
relay services. Both AT&T and Verizon offer mobile devices that not 
only provide text-to-speech access to phone features, but to web pages 
as well. Many of our members provide specialized offerings, such as 
free directory assistance, or text- and data-only plans, so that people 
who are deaf or have hearing loss will not pay for voice communications 
services they are unable to use.
    Our commitment to bringing the benefits of telecommunications to 
all Americans, including those with disabilities, is also mirrored by 
our work in the legislative arena. As we approach the 20th anniversary 
of the Americans with Disabilities Act this July, I would note that one 
of the first completed, and least controversial, sections of that 
landmark legislation was Title IV, which mandated the establishment of 
a nationwide telecommunications relay service by 1993. In 1994 and 
1995, we continued our efforts in this area, working with the 
disability community to develop and support what is now section 255 of 
the Communications Act. That section requires providers to ensure that 
telecommunications services and equipment are accessible to and usable 
by people with disabilities. I am also pleased to note the bulk of 
those provisions were developed in this Committee.
    In 2008, Mr. Chairman, your colleague from Massachusetts, 
Representative Ed Markey, raised the question of whether it was time to 
update section 255 of the Communications Act to reflect the reality of 
our industry's shift to IP-based communications and the advent of new 
video programming technologies. Representative Markey encouraged us to 
work with the disability community and taking a page from the history 
of section 255's development, we began a series of discussions with the 
disability community, represented by the Coalition of Organizations for 
Accessible Technology (COAT).
    Our discussions with COAT would take over 15 months and more than 
40 legislative drafts to complete. While time consuming, these 
discussions were also illuminating. We were able to identify more 
precisely the needs of the disability community and to target the bill 
to address those needs. We also gained an understanding of their 
frustrations with how the current processes and procedures at the 
Federal Communications Commission work to delay and inhibit their 
ability to bridge the communications gap for their members. Our joint 
work is largely reflected in Representative Markey's introduction in 
June 2009 of H.R. 3101, the 21st Century Communications and Video 
Accessibility Act.
    The FCC's consideration and development of the National Broadband 
Plan in late 2009 and early 2010 gave us yet another opportunity to 
work with the disabilities community to ensure recognition of their 
needs as we enter an era in which IP-based technologies will provide 
the basis for most if not all electronic communication. We were 
particularly delighted by the inclusion of Recommendation 9.10 in the 
National Broadband Plan, which states that ``Congress, the FCC and the 
Department of Justice should modernize accessibility laws, rules and 
related subsidy programs.'' We are also pleased the Commission has 
already begun to implement Recommendation 9.9 to establish an 
Accessibility and Innovation Forum, the first meeting of which is 
scheduled in July. We believe our experience working closely with COAT, 
replicated on a broader scale and on a more systematic basis, will 
hasten the advancement of broadband accessibility.
    We also appreciate Senator Pryor's introduction earlier this month 
of S. 3304, the ``Equal Access to 21st Century Communications Act,'' 
and its co-sponsorship by you, Chairman Kerry, and Senators Dorgan and 
Conrad. It is the next important step in the process of updating the 
Nation's laws governing access to advanced communications technology 
for people with disabilities. In general, S. 3304 is designed to extend 
disability access provisions applicable to legacy telecommunications 
and video services to IP-enabled services and equipment and to new 
video programming technologies. The legislation also acknowledges that 
section 255 of the Act, with its limitation to telecommunications 
services and equipment, does not encompass many of the services that 
people routinely use today. Thus, the bill appropriately places the 
treatment of advanced communications for these purposes under Title VII 
of the Communications Act.
    Among the bill's most helpful additions to current law are 
enforcement procedures that will put remedies for noncompliance on a 
fast track, something sorely lacking today; Lifeline and Linkup support 
for Internet access services and advanced communications for those who 
meet those programs' eligibility requirements; and the establishment of 
an Advisory Committee on Emergency Access and Real Time Text to provide 
recommendations to the FCC and to the Senate and House Commerce 
Committees regarding the actions necessary to ensure interoperable 
real-time text communications as part of the migration to a national 
IP-enabled network, a critical public safety need for disabled 
Americans in the 21st century.
    The legislation would also achieve what the FCC was unable to do in 
2000: ensure that video description capability is made widely 
available, not just for television broadcasts but also for certain 
video programming distributed over the Internet, the place where more 
and more Americans are watching video today. Methods to improve the 
conveyance of emergency information by means of video will also be 
required under S. 3304, and closed captioning will be similarly 
advanced to include Internet distribution. Equipment that receives and 
plays back video programming will be required to have closed 
captioning, video description, and accessible emergency information 
capability.
    In all the respects cited above, the legislation reflects our 
discussions with COAT. But we do have some concerns about the Senate 
version of the legislation, as compared to H.R. 3101, and moving 
forward we would like to work with the Committee to amend the bill in 
at least two respects.
    First, H.R. 3101 defines ``advanced communications'' as an 
``interconnected VoIP service, non-interconnected VoIP service, 
electronic messaging, and video conferencing.'' The FCC's National 
Broadband Plan adopted H.R. 3101's definition of ``advanced 
communications,'' in its recommendations related to accessibility for 
Americans with disabilities. S. 3304, by contrast, covers a bundled 
package that transmits IP based voice, video conferencing and text 
communications, but leaves entirely to the FCC the determination of 
whether coverage of any other ``application or service accessed over 
the Internet that provides for voice, video conferencing or text 
communications'' is, in its sole judgment, ``necessary.''
    The consequence of that approach is that the bill inadvertently but 
unjustifiably distinguishes between technologies that deliver the same 
or similar services. So, for example, the e-mail services offered by my 
member companies or by cable companies, which also serve as network 
providers, may be automatically covered by S. 3304. However, other 
identical services such as Gmail and Hotmail are only covered if the 
Commission determines it is ``necessary'' to do so. Similarly, Internet 
Protocol phones are now commonplace, as are other Internet applications 
that substitute for the telecommunications services and corresponding 
equipment that were dominant in 1996 when section 255 was enacted. Yet 
while the Senate bill would leave in place the mandatory provisions of 
section 255 as they apply to traditional telecommunications and 
customer premises equipment, and would extend that mandatory treatment 
to bundled services provided by my members--appropriately, I hasten to 
add--similar coverage for other newer and potentially more common 
devices and services would be left to the FCC's discretion. I have 
attached a chart to my testimony that highlights other examples of 
similar technological disparities that would be created by this 
definition.
    Such an approach runs counter to the generally acknowledged view 
that broadband has created a convergence of services for which the 
``stove-piped'' regulatory framework currently found in the 
Communications Act is not well-suited. Surely, the ability of disabled 
Americans to communicate in the 21st century should not be dependent on 
old legal categories that pre-date the development of devices, 
services, and applications that may not have even been contemplated 
when those categories were first created. We don't believe the 
Commission should determine which specific IP applications or services 
are ``necessary'' for the purpose of ensuring accessibility to 
Americans who are deaf, blind, or deaf-blind. All of them are necessary 
to some or all of that disabled community. And that determination 
certainly should not be based on factors such as market share or 
popularity among the population at large.
    Prior to passage of the ADA, Americans with disabilities grew 
justifiably impatient with claims that making public accommodations, 
public transportation, and communications services and equipment 
accessible ``just couldn't be done,'' or couldn't be done at reasonable 
cost. Over and over again, many of those claims were proven wrong. When 
an industry starts out with the attitude that providing accessibility 
is too hard, it's not surprising that not much gets done. What our 
industry has found in the course of the last 25 years is that both we 
and the disabled community benefit from the certainty and focus that a 
sound and sensible legal roadmap for achieving accessibility provides. 
We believe that with such a roadmap, talented engineers and business 
people across the Internet landscape will respond in good faith to the 
challenge.
    Second, in contrast to the House bill's reliance on well-
established, defined, and interpreted terms in disability law such as 
``readily achievable'' and ``undue burden,'' the Senate bill instructs 
the Commission to apply new accessibility requirements to Internet-
based services and equipment where doing so is ``achievable.'' However, 
S. 3304 provides scant definition of what ``achievable'' alone is 
supposed to mean, and there is no other legal guidance we're aware of 
in this area on which we can rely. The inevitable consequence of this 
ambiguity will be extended regulatory jockeying and litigation, in 
which those who would prefer not to undertake the actions required by 
the FCC, or those who are required to undertake them while their 
competitors are not, do battle over the meaning of this new and 
undefined term. Americans with disabilities should not have to wait for 
those legal battles to play out.
    Mr. Chairman, in closing, let me reiterate our commitment to your 
effort. We hope the Committee process will produce a final bill that 
maximizes disabled consumers' access to advanced services across all 
platforms and technologies. Americans are more reliant than ever on 
communications devices and networks in their daily lives, but Americans 
with disabilities can derive particular benefits from these 
technologies. As these exciting new technologies evolve, that 
population could become increasingly disadvantaged if they are denied 
access to them.
    We thank you for your invitation to appear today. USTelecom and its 
member companies look forward to working with the Subcommittee and this 
Congress to achieve our shared objective of making the use of broadband 
as ubiquitous today as electricity, water, and telephone service. 
Broadband is an essential building block of every modern American 
community. We pledge our support for making its many opportunities 
accessible to all Americans. Thank you.

                  Comparison of House and Senate Bills
------------------------------------------------------------------------
Service or Application        H.R. 3101                 S. 3304
------------------------------------------------------------------------
Advanced                The term ``advanced   The term ``advanced
 Communications          communications''      communications'' means
                         means                 devices and services that
                         interconnected VoIP   transmit a bundle of IP-
                         service; non-         enabled voice, video
                         interconnected VoIP   conferencing and text
                         service; electronic   communications and any
                         messaging; and        application or service
                         video conferencing.   accessed over the
                                               Internet that provides
                                               voice, video conferencing
                                               or text communications as
                                               determined necessary by
                                               the FCC.
User Interface for      Yes                   Yes
 Internet Access
 Service
Interconnected VoIP     Yes                   Yes
 (e.g., Vonage)
Video Conferencing      Yes                   Only if bundled with IP
                                               voice and IP based text
                                               communications;
                                               otherwise, only if FCC
                                               finds ``necessary''
                                               (e.g., Skype video
                                               conferencing)
IP-Based Text           Yes                   Only if bundled with IP-
 Messaging                                     based video conferencing
                                               and IP voice; otherwise,
                                               only if FCC finds
                                               ``necessary'' (e.g.,
                                               instant messaging by MSN,
                                               Yahoo!, or AOL, or IP-
                                               based text messaging such
                                               as Skype SMS)
E-mail                  Yes                   Only if bundled with IP-
                                               based video conferencing
                                               and IP voice; otherwise
                                               only if FCC finds
                                               ``necessary'' (e.g.,
                                               Gmail, Yahoo! Mail,
                                               Hotmail)
Unbundled Non-IP-Based  Yes                   No
 SMS text messaging
 (e.g., AT&T, Verizon,
 Sprint)
Other Unbundled Voice   No                    If the FCC determines
 Applications (e.g.,                           necessary
 Google Voice)
------------------------------------------------------------------------


     Senator Kerry. Well, thank you very much, Mr. McCormick. I 
think we had a pretty stark example of how communication ends 
there momentarily where there was no caption, and people can 
imagine, therefore, for all those devices on which there is no 
caption, there is no communication. So it was not planned, but 
helpful.
    Mr. McCormick, let me ask you quickly--first of all, we 
appreciate your testimony. Thank you, and thank you for being 
here and thank you for working with folks.
    Can we anticipate that those issues that you raised, which 
I think are legitimate. Can we work those through in short 
order and try to see if we can't move this legislation--with 
unanimous support, hopefully--very quickly?
    Mr. McCormick. Well, we would hope so, Mr. Chairman. We 
think that the intention there is to cover everyone and to 
really move us into the 21st Century. So we'd be happy to work 
with the Committee on that.
    Senator Kerry. What do you think the key ingredients will 
be? Is there a particular sector of the industry that may be 
more complicated than another?
    Mr. McCormick. I think, Mr. Chairman, that because of the 
enormous amount of effort that went into this bill over the 
course of the last year-and-a-half that the concerns have been 
pretty well laid out. And I think everybody sort of understands 
what the scope of the legislation would do. So, I think it 
could be worked out in pretty short order.
    Senator Kerry. Well, it would be terrific if we could, and 
I know there are a lot of advocates here who would be very 
excited if you can do that.
    Mr. Wlodkowski, can you share with me a little description 
of the device that you've been working while you were 
testifying?
    Mr. Wlodkowski. This is actually called a Braille Light. 
It's not the most current technology by any means. In fact, 
friends of mine, Senator, who are here from the blind 
community, were telling me that I should get up with the times. 
But I do work for a leading web-services company.
    So this is what we would call a refreshable Braille 
display, and it's a 20-character Braille display. It allows me 
to navigate and read notes and take notes in meetings, and, 
certainly, the more recent state-of-the-art devices even have 
much more capability than that.
    Senator Kerry. I was fascinated by it, how fast you're 
moving your finger across it. And as you're doing that, you're 
reading each of the Braille letters and notes to yourself?
    Mr. Wlodkowski. Right. So the 20 characters are driven up 
by plastic pins and little motors inside each of these little 
cells, and they make the different configurations, the Braille 
cells, for the letters and contractions that make up Braille.
    Senator Kerry. That's very interesting and fascinating the 
way it works. I was intrigued. You were the only witness who 
was on time. Maybe we should all use them.
    [Laughter.]
    Mr. Wlodkowski. If I might, I'd like to just mention the 
piece that I cut out when I was looking----
    [Laughter.]
    Senator Kerry. Well, I saw you did get a little cue from 
somebody----
    [Laughter.]
    Senator Kerry.--but I admire it nevertheless.
    Share with us what technologies or what advances you think 
would make the most difference to you and to your friends, 
members of your community. How can we make the most difference 
here in technology, and what services and/or devices do you 
think could be made accessible that aren't that would make the 
greatest difference?
    Mr. Wlodkowski. Sure. Mr. Chair, I'd be happy.
    I think that the biggest thing that we really need to look 
at is interoperability, the accessibility frameworks that are 
what facilitate the communication between the mainstream 
information technology and the assistive technologies like 
screen readers and voice-recognition programs, alternative 
keyboard devices. Those frameworks really need to be top notch 
and continually improved, and that's where the Accessibility 
Interoperability Alliance is coming in.
    I think the biggest piece here is that we need to realize 
that built-in accessibility versus compatibility to achieve 
accessibility is an interesting debate that we need to make 
sure that we're all clear on as to how we move forward with a 
common definition.
    So built-in accessibility to say something like a 
Smartphone, for me, you could build in a screen reader that 
would--and there are Smartphones that have built-in screen 
readers and I can use the touch screen, and innovation has 
occurred there.
    That same approach would not work for someone who's deaf-
blind. They would require the refreshable Braille display and 
some communication protocols to allow the communication between 
the Smartphone and the Braille display.
    So I think those are the types of things, and leveraging 
the innovation and the innovation of mainstream IT companies, 
and making sure that we don't lose the innovation by 
accessibility experts who develop the screen readers and the 
refreshable Braille displays to bring them altogether in 
stronger partnerships between corporations, researchers and 
government.
    And I think a unique model that, Mr. Chair, your committee 
might want to take a look at is a project that AOL is involved 
with in Europe under the European Commission's FP7 Research 
Program. It brings together consumers, researchers, and 
disability advocates to prioritize and then develop open 
accessibility solutions that are available to developers all 
over the world.
    I'd really like to see if the government here could take 
some of the Federal grant dollars that are targeted toward 
accessibility research and find ways to facilitate those 
stronger private-public partnerships.
    Senator Kerry. That's a good idea and we'll certainly take 
a look at it.
    Sergeant, let me again say how grateful we are for your 
service. I know you've been through a hell of a period of time 
here. I did read your testimony in full, and I read your long 
journey from injury to where you are now, and we certainly 
salute your courage and tenacity.
    Share with us, if you would, quickly, what kinds of things, 
right now, do you think would make the most difference to you, 
at this point, in terms of device or service?
    Sergeant Pearce. First, let me say there's really--there's 
no need to thank me for my service. I did it because I wanted 
to. I would do it again. I would do it again in a heartbeat.
    Senator Kerry. Well, good for you, but we still need to say 
thank you.
    Sergeant Pearce. Thank you. I thank you for your service.
    And as far as a device, I mean, I really don't know. I've 
looked. And I talked with you yesterday, Senator Pryor, about 
cell phones----
    Senator Kerry. That's tough.
    Sergeant Pearce. Yes, it is. It really is. It really is 
tough to find a user-friendly cell phone for a blind person or 
for a nearly-blind person.
    And the VA has been very, very helpful. I've been to the VA 
blind center up to West Haven, Connecticut, twice. And they've 
given me a couple of computer programs for my computer to allow 
me to access my e-mails, and that has helped me immensely, but 
I----
    Senator Kerry. It shouldn't be that complicated. I would 
think, with a little bit of focus, attention and effort, we can 
design everything else. We ought to be able to help you meet 
your needs.
    Sergeant Pearce. Yes.
    Senator Kerry. I will pledge to you this: I'm sure Senator 
Pryor and I will work with some folks in the industry, and 
maybe they ought to sit down with you and some of your friends 
and kind of work through what's needed and how to do this. And 
I----
    Sergeant Pearce. Yes. I'm really looking forward to this 
bill, whenever it comes to fruition, to see how it comes to.
    Senator Kerry. Yes. Well, we'd love you to be here and 
celebrate it when we pass it.
    Sergeant Pearce. Thank you.
    Senator Kerry. We'd like that.
    Sergeant Pearce. And thanks for having me today.
    Senator Kerry. Thanks for coming.
    Both Ms. Scoggins and Mr. Harvard, I have to tell you, I am 
in awe of the speed with which you communicate signing the 
amount that you somehow compress into each sign.
    And, Mr. Harvard, maybe it's your acting ability, but the 
expressions which accompany frustration and anger and--you 
know--are worth it.
    [Laughter.]
    Senator Kerry. We appreciate what you've conveyed to us 
today. I really mean that. Very, very compelling testimony, 
both of you.
    Would you both share with us, quickly, the ways in which 
you think devices, services or accessibility would make the 
most difference?
    And, particularly, Mr. Harvard, as an Actor, I assume there 
are many things that you feel would be enormously helpful to 
you in your trade that aren't accessible that could be, and 
perhaps you could share that with us a little bit.
    Mr. Harvard. I'd be happy to. I think that all that I've 
mentioned in my testimony needs to be focused on. I don't think 
that there is a single issue that is of particular concern. I 
think they all need to be given equal weight and all need to be 
given equal attention.
    Most of my frustration with regards to smaller devices is 
that I cannot receive closed captioning on. I own three iPods, 
and none of them display captions. So, I would say most of my 
frustration has to do with those small-screen mobile devices.
    Senator Kerry. Can I interrupt you quickly? Would those 
devices have to have a larger screen, larger print or would you 
be able to read the captions on the screen as it is?
    Mr. Harvard. No, I think as long as they can give us a 
screen, I should be able to read it. Doesn't matter how small 
or how large the screen is, I think that it is possible to read 
captions on those devices.
    Senator Kerry. Ms. Scoggins, yes.
    Ms. Scoggins. Yes, and if I may, I'd like to tailor onto 
that as well. I feel very similar to Russell about that. The 
products and services that are out there--they unfortunately 
don't meet our needs.
    So we would like to really strongly encourage the Committee 
to think about a broader definition in terms of accessibility 
and not limit us to saying a specific product or a specific 
service is tailored to our needs.
    What we would like to see are products and services out 
there that would allow any of us to be able to have all of the 
things that we would need, that there isn't just one phone.
    And, unfortunately, right now, there isn't even that one 
phone or one technology that meets our needs, like we don't 
have something that will do voice, video and text all at the 
same time, which is what we'd like to have happen. Europe's got 
it, but we haven't received that yet here in the states.
    And I think I can speak for both of us on that when I say 
that video technology with the captions, with the text and with 
the voice-to-text or speech-to-text and all of those different 
interfaces for communication would provide all of us with the 
amount of freedom that we could use in an amazing way.
    I mean, it would allow our colleagues across disabilities 
to have the same access and services that we would like if we 
were able to use the multiple platforms for communication and 
transmission of information in one static device, that we have 
a webcam, that we have a video phone, that we have whatever 
type of device is acceptable that would address that.
    Right now, we're all operating with multiple lines, 
multiple sources. We have tons of different technologies, and 
it doesn't meet our needs.
    Senator Kerry. Well, we're certainly going to--I'm 
confident that we can get that done. I think that is 
achievable. I'm confident Mr. McCormick believes so, and I 
appreciate his willingness to work with us. We're going to try 
and get this done as rapidly as we can.
    And I'm enormously grateful to you for your eloquent 
testimonies here today.
    Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman, and I want to thank 
you and also really thank the panel for being here today and 
helping this subcommittee and, by virtue of helping the 
Subcommittee, helping the entire Senate understand the lay of 
the land right now.
    Ms. Scoggins, let me start with you, if I may, and that is 
one time I had a conversation with Marlee Matlin that I'll 
probably never forget, because she told me her favorite movie 
growing up was the Wizard of Oz, and she noticed on the 
Internet that a website was going to be playing the Wizard of 
Oz for free.
    And she was excited and she got her kids and they popped 
the popcorn and they sat down in front of the computer screen 
and were just going to have a fun night, and when it came on, 
it wasn't closed caption. And my question for you is, have you 
had similar experiences to that?
    Ms. Scoggins. Oh, yes. Right now, you know, they produce a 
lot of Blu-ray technologies, and I thought that was an 
excellent thing.
    My mother had actually bought me one of the very recent 
movies that came out, and I thought it would be great. And I'm 
deaf. My mother's deaf. We thought it would be fabulous. We put 
the DVD in and it just wouldn't work. It was incompatible.
    So we figured we'd go and try it with the Blu-ray. We 
thought this is great. We have the technology. We have our 
popcorn. It's ready to go. And, lo-and-behold, it wasn't 
captioned, again.
    It just doesn't seem to matter what the standards are or 
what the industry is supposed to be doing. And we have to have 
these legal standards in order to make them accept the concept 
that each newly-produced movie should have it as a standard 
expectation that captions are included.
    Marlee Matlin's experience is very similar to what I would 
say most of us in the community have experienced.
    Senator Pryor. And, Mr. Harvard, have you had those same 
types of experiences?
    Mr. Harvard. Well, I would be in a spot if I had to tell 
you someone who didn't. We've all had that experience. I don't 
think you could find a single deaf or hard-of-hearing person 
who would be able to tell you that they have never had that 
type of frustrating experience.
    Senator Pryor. And, Mr. Harvard, let me ask you, one of the 
other witnesses talked about emergency information with, say, 
storm warnings and things of that nature, what is your 
experience in trying to get emergency information about storms 
and other things you need to be aware of?
    Mr. Harvard. In my personal experience, I haven't had a 
problem with that because I can see the text that's scrolling 
on the screen when those types of warnings are coming across, 
but I am concerned for other folks who are blind that don't 
have access to that. So I would encourage you all to focus on 
that as well, to make sure that they have equal access.
    Ms. Scoggins. And if I may, mostly I would say that the 
emergency services, the notifications that come across the 
system, it certainly isn't a perfect system. There are many 
times and occasions when deaf people don't hear those beeps and 
alarms. So some kind of emergency system or a notification 
system----
    It would really, unfortunately, require us to actually be 
able to look at the TV set, which we aren't always doing. So if 
it was available on the Internet as well and it did not have 
those significant time delays as we often experience, that 
would be the best solution.
    Because, right now, like if somebody has a heart attack, 
for example, the old technology that we used to have to use to 
make an emergency phone call--I-A-M-H-A-V-I-N-G--spelling out 
each individual letter to get to the point that they're having 
a heart attack, and then having to wait for the etiquette rules 
to say go ahead for the other person to take their turn makes 
it completely inefficient when an emergency occurs.
    So if we have the ability to call emergency services. So 
it's not so much the notification as it is our ability to 
interface with the emergency services and get their attention 
in a timely fashion, because it's just not a perfect system 
right now.
    Senator Pryor. Thank you for that.
    And, Sergeant Pearce, you've really been on both sides of 
this, because, until you were deployed with your military 
service--and, again, we all appreciate that, but until you did 
that, you were totally fine in your vision. And, now, I believe 
the other day you told me that it's almost like looking through 
a straw, that's how much vision you have now.
    You've been on both sides of this equation then. So, what 
are some of the biggest challenges you've had, when it comes to 
technology and modern communication, since you've had your 
traumatic brain injury?
    Sergeant Pearce. The biggest problem that I've encountered 
is really the stubbornness of change.
    Like, I go in to a retail store and try to explain my 
problems to them and tell them what my problems are, and they 
don't understand where I'm coming from as a non-sighted and 
partially-hearing-loss person. And they're having a hard time 
solving my problems. So----
    Senator Pryor. So like, for example, you might, say, buy a 
cell phone or something like that and it's not working to your 
satisfaction, when you go back to the retail store and try to 
explain the situation, you have difficulty there?
    Sergeant Pearce. Right.
    Senator Pryor. And have you also dealt with retail stores 
and the manufacturers and the service providers when it comes 
to wireless phones?
    Sergeant Pearce. Yes.
    Senator Pryor. And how has that been resolved for you?
    Sergeant Pearce. I've been through several phones.
    [Laughter.]
    Senator Pearce. Mr. Chairman, thank you.
    Senator Kerry. Thanks a lot, Senator Pryor.
    Senator Klobuchar.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Senator Kerry. 
Thank you for holding this hearing.
    I know that, Sergeant Pearce, you'd be interested in my 
cell-phone bill of rights----
    [Laughter.]
    Senator Klobuchar.--that we want to get passed. I think 
everyone feels those frustrations, and you more than others. 
And, again, thank you for your service.
    As I listened to this, I was thinking about all these 
advancements in technologies, and, I'll be honest, until the 
Chairman held this hearing, I hadn't thought about how the 
potential for good for all of you, but, also, the potential 
that you could be left behind if the new technologies that we 
develop don't keep up in serving people with disabilities. And 
just as technology and software is upgraded, our laws have to 
be upgraded as well.
    And I was glad to see in the National Broadband Plan that 
the FCC addressed modernizing equitability laws, rules and 
related subsidy programs, but I think it all has to be done in 
a way that we put your needs first, and that that has to be a 
major part as we go along.
    And I've thought about this, and I'm head of the 911 
Caucus, and so, there again, we also see new ways to 
communicate emergencies and new great potential of using and 
harnessing the technology that we have.
    So, first, I wanted to ask you, Mr. Wlodkowski, about the 
Internet Caption Forum and Society of Motion Pictures that is 
supposed to be developing an industry standard for captioning 
online video content. Do you know how far along these standards 
are? How close are they to becoming a reality?
    Mr. Wlodkowski. Thank you, Senator. The Internet Caption 
Forum was a voluntary effort founded by AOL, Google, Yahoo!, 
and Microsoft, back in 2007, to try and look at the barriers.
    AOL enjoys a very, very loyal audience within the deaf 
community, very appreciative of that audience, and that was 
developed because of our pioneering of instant messaging, which 
really revolutionized one-on-one communication.
    We wanted to look at, with the Internet Caption Forum, 
getting everybody together--industry in particular--to say how 
could we make this happen on a scalable level. We were looking 
at how to repurpose television content for distribution over 
broadband networks.
    Each media player had its own text format, so we realized 
that we really needed to bring the content providers and 
producers together with the broadcasters and other key 
stakeholder groups--consumer electronics and captioning and 
subtitling production companies. And we discovered that that 
work would be better done in the Society for Motion Picture and 
Television Engineers working group.
    And Version 1.0 of that standard is expected later this 
year. That should help us really move down the path. And I 
believe that's the big issue that I see in all of this is that 
there's a lot of ongoing activity. There's the TEITAC Report, 
which addresses real-time text and closed captioning and 
interoperability. That's the report that the access board is 
looking at for their rulemaking for Section 508 and Section 
255.
    There's the SMPTE Working Group that's developing the 
captioning standards for online video. There's the 
Accessibility Interoperability Alliance and other facilitated 
dialogue happening.
    And so, as we move forward, it's really important that we 
take a look at where all of these activities are and how we 
bring them together and make sure that flexibility is at the 
top of all of that, so that when we create these standards, as 
technology evolves, that we can evolve with it.
    Senator Klobuchar. Very good. And in your testimony you 
talked about all the layers of technology that are required to 
make a web page accessible. And could you just briefly tell me 
how you do that? Does it cost a lot? And how does a blind 
individual access a website?
    Mr. Wlodkowski. Sure. So the web page has to have some tags 
that we put into our content. So if we're going to put an image 
on a page, we put in what they call an Alt Tag, and that is a 
piece of text that describes the image. That helps 
accessibility and it helps search engines crawl our sites. So 
it's an universal benefit to all of the industry and to all 
users.
    But to really make the page interactive with the blind 
consumer, the screen-reader software--which replaces the mouse 
by adding additional keyboard commands and also by either 
speaking what's on the screen or by sending that information to 
a refreshable Braille display--that software, the screen 
reader, and the web browser that we all use--whether it be 
Firefox, Internet Explorer, Opera, or Safari--they need to 
communicate with each other.
    So as the web browser comes to the AOL page, it sees all of 
the web tags that we've put in to make accessibility more 
efficient. It has to pass that back to the screen reader and 
the screen reader has to be able to interact with it. So that's 
where you get into the layers.
    And it's the same thing with mobile devices and other 
products where there's the operating system--which is 
essentially the engine, you know, that device that the end-user 
has in their hand that they're interacting with--and then the 
content or the application that they're trying to use. And it's 
a chain and there are many interdependencies along the way.
    So, as we look at this, when we look at standards or any of 
this, we want to make sure that we're not too prescriptive in 
how implementation is done, because there are lots of 
components that need to work together.
    Senator Klobuchar. Thank you very much.
    You mind if I ask a few more questions, Mr. Chairman?
    Senator Kerry. No, please--
    Senator Klobuchar. I love that little beep when your time 
is up. It's good for our hearing, but maybe others will want to 
use it in the future against the Senators. This could be a good 
way of ending our speeches. It was----
    [Laughter.]
    Mr. Wlodkowski. Universal design.
    Senator Klobuchar.--until today, I didn't know we had.
    Ms. Scoggins, moving on from continuing on this discussion 
with broadband, as we approach a major plan in the broadband 
area, what percentage of deaf individuals would you say are 
using broadband as their primary means of communication? And 
should broadband be eligible for Lifeline/Link-Up subsidies to 
facilitate the access?
    Ms. Scoggins. So, first, for the broadband plan that is 
currently being promoted, I find it very vital to the deaf and 
hard-of-hearing community that they are a part of that process, 
because it's the hope that within the next couple of years that 
broadband will be all inclusive.
    The percentage of how many deaf and hard-of-hearing users 
actually have access to that service is--it is significant. 
Thirty-nine percent of people who have disabilities responded 
as being broadband users. And that is a nationwide-access 
level. So there's a definite priority in that particular arena.
    But it's just like with hearing users. There are still a 
significant number of users who are deaf and hard-of-hearing 
who have no access, for a variety of reasons, to broadband in 
any way, shape or form.
    Of course, on the East and West Coasts, we have the larger 
cities, and in those larger cities we have the larger 
populations of deaf and hard-of-hearing individuals, and we do 
see a certain amount of saturation in those markets.
    But, unfortunately, the technology itself doesn't always 
meet our needs. And the needs themselves are that we need to 
have a certain percentage of upload and download speed 
capability for the visual images to be rendered appropriately 
to show the language.
    We do see that a higher level of deaf and hard-of-hearing 
people are unemployed, as compared to the population at large, 
because there's the simple fact that they cannot financially 
afford the services. For those folks that are out there who 
have no jobs, they are de facto not going to be able to afford 
paying out the extreme costs for broadband services.
    You mentioned the link-in, link-out Lifeline systems. A lot 
of folks don't have access to those because, unfortunately, 
they don't have a great clearinghouse for information to try 
and share some of the massive outreach that these actually 
occur, because people aren't aware of the services.
    This bill is probably going to help us address a lot of 
those situations. It's going to provide for more education. 
It's going to provide for more awareness for how people who 
have lower income levels can gain access to broadband services. 
And so I would say there are a whole host of issues that are at 
work here related to whether or not people have access to the 
services.
    Senator Klobuchar. Thank you.
    And then one last question, Mr. McCormick--you're down 
there quiet at the end--in my role as Co-Chair of the 911 
Caucus, I've heard a great deal about the next generation 911 
technologies.
    We have a bipartisan bill we've put together. And I can 
actually imagine a system that can give text-message alerts or 
video messages on cell phones announcing an emergency. And how 
far away is real-time text for 911 purposes? And what other new 
technologies are out there that will be able to distribute 
emergency messages quicker and more conveniently?
    Mr. McCormick. Senator, I'd be happy to provide that 
information for the record, but I will say this: We're here 
today in support of these aspirations because our industry has 
one core business, which is to use technology to help improve 
people's ability to communicate.
    And our interest in this bill is in working to get it 
passed and working to make sure that it meets the aspirations 
of the individuals at this table, so that people with 
disabilities, when they need to go to a 911 service, when they 
access e-mail, when they go to the Internet that they have the 
same reasonable expectations that the abled population has.
    Senator Klobuchar. Thank you very much.
    Senator Kerry. Thank you, Senator Klobuchar.
    Thank you, Mr. McCormick. I want to just try to guarantee 
that we can, hopefully in the next few days, get to really tie 
up the concerns you had and the loose ends, and then, 
hopefully, we can really try to move this thing through the 
House and Senate as rapidly as we can. I think it's to 
everybody's benefit to try to do that.
    Is there anything any of the witnesses would like to say 
that they haven't had a chance to say or that you think grows 
out of any of the questions that have been asked thus far? 
Everything covered?
    Yes, Ms. Scoggins.
    Ms. Scoggins. I just wanted to make one final point, which 
is primarily to thank Mr. McCormick and for those providers out 
there who have been working together with us. The work has been 
quite laborious, and he has done the yeoman's effort thus far, 
and just to emphasize that this bill will really help move 
things forward in terms of inclusion, interoperability and all 
of those other principles that we strive for in making 
technology accessible to us. H.R. 3101 really showed that, and 
I'm interested to see how fast this moves.
    And I really want to thank you, Chairman Kerry--and Senator 
Pryor, as well--for your efforts on this.
    Senator Kerry. Well, thank you very much. I want this 
hearing to be the departure point which you all remember as 
having really kicked it into final gear.
    As Mr. McCormick said earlier, there has been a lot of work 
done, a lot of groundwork laid over the last year-and-a-half, 
et cetera. I think we're poised to move.
    I think your testimonies today have all been incredibly 
helpful, very, very eloquent, very important. And I hope you'll 
be able to look back with pride and say that--when this gets 
done--you helped to make these services and devices and all of 
these possibilities available to everybody. Thank you all very, 
very much.
    We stand adjourned. Thank you.
    [Whereupon, at 3:59 p.m., the hearing was adjourned.]

                                  <all>

</pre></body></html>
